i
APPENDIX
Page
Tweed-New Haven Airport Authority v. Tong, No.
17-3481-cv and No. 17-3918-cv, U.S. Court of
Appeals for the Second Circuit, Judgment
entered July 9, 2019 ................................................1a
Tweed-New Haven Airport Authority v. Jepsen,
Case No. 3.15cv01731 (RAR), U.S. District
Court for the District of Connecticut,
Judgment entered October 3, 2017 ......................24a
Tweed-New Haven Airport Authority v. Jepsen,
Case No. 3.15cv01731 (RAR), U.S. District
Court for the District of Connecticut, Ruling
on Defendant’s Motion to Dismiss entered
December 9, 2016 ..................................................68a
Tweed-New Haven Airport Authority Act,
C.G.S.A. § 15-120g et seq. ......................................88a
Supremacy Clause of the United States
Constitution, Article VI, Clause 2.......................108a
Connecticut Constitution, Article Tenth, § 1 .........108a
Federal Aviation Act, 49 U.S.C.A. § 40103 .............109a
14 C.F.R. § 139.1 .....................................................111a

1a
930 F.3d 65
United States Court of Appeals, Second Circuit.
TWEED-NEW HAVEN AIRPORT
AUTHORITY, Plaintiff-Appellant,
City of New Haven, Intervenor Plaintiff-Appellant,
v.
William TONG, in his official capacity as
Attorney General for the State of Connecticut,
Defendant-Appellee.*
No. 17-3481-cv; 17-3918-cv
|
August Term 2018
|
Argued: December 12, 2018;
|
Decided: July 9, 2019
Appeal from the United States District Court for
the District of Connecticut, No. 15 Civ. 1731 (RAR),
Robert A. Richardson, Magistrate Judge, Presiding.
Attorneys and Law Firms
Hugh I. Manke, John C. King, Christopher A. Klepps,
Updike, Kelly & Spellacy, P.C., Hartford, Ct., for
plaintiff-appellant Tweed-New Haven Airport Authority.
John Rose, Jr., Corporation Counsel, New Haven Office
of the Corporation Counsel, New Haven, Ct., for
intervenor plaintiff-appellant Tweed-New Haven
Airport Authority.
* The Clerk of Court is respectfully directed to amend the
official caption as indicated above.

2a
Drew S. Graham, Assistant Attorney General,
Hartford, Ct., for defendant-appellee William Tong,
Attorney General of the State of Connecticut.
Before: SACK, PARKER, and CHIN, Circuit Judges.
Opinion
BARRINGTON D. PARKER, Circuit Judge:
Tweed-New Haven Airport is located in the Town
of East Haven and the City of New Haven,
Connecticut. The Airport is owned by the City of New
Haven and leased to and operated by Tweed-New
Haven Airport Authority (“Tweed”).1 Tweed sued the
then Connecticut Attorney General George Jepsen in
his official capacity2 (the “State”), seeking a declaratory
judgment that a Connecticut statute (the “Runway
Statute” or “Statute”) that limits the Airport’s runway
to its current length of 5,600 feet was invalid. See
Conn. Gen. Stat. § 15-120j(c). Tweed claimed that the
1

Tweed is “a body politic and corporate” created through
legislation by the state of Connecticut. See Conn. Gen. Stat. § 15120i(a). While its originating statute describes Tweed as a “public
instrumentality and political subdivision” of Connecticut, it “shall
not be construed to be a department, institution or agency of the
state.” Id. It has a fifteen-member board of directors, comprised
of persons appointed by the mayor of New Haven, the mayor of
East Haven, and the South Central Regional Council of
Governments. Id. § 15-120i(b). If Tweed is terminated, its rights
and property pass to the City of New Haven. Id. § 15-120i(e).
2
Since the inception of the suit, the identity of the
Connecticut Attorney General has changed from George Jepsen
to William Tong. This change is reflected in the case caption.

3a
Statute was preempted by federal laws governing the
regulation of air transportation, including the Federal
Aviation Act (“FAAct”), see 49 U.S.C. § 40101 et seq.
Following a bench trial in the United States
District Court for the District of Connecticut
(Richardson, M.J.),3 the court concluded that Tweed
lacked standing to sue because its injury was not
caused by the Statute and that, assuming Tweed could
establish standing, the Runway Statute was not
preempted by the federal laws to which Tweed cited.
Because we conclude that Tweed has standing and
that the Runway Statute is preempted by the FAAct,
we reverse.4
BACKGROUND
The Airport serves the New Haven area. It has a
catchment area—the area from which an airport
expects to draw commercial air service passengers—in
excess of 1,000,000 people. The Airport’s primary
runway, Runway 2/20, is currently 5,600 feet long. The
runway is one of the shortest commercial airport
runways in the country, and it is the shortest runway
for an airport with a catchment area as large as Tweed’s
area. The Airport’s catchment area is the largest
catchment area without nonstop flights to Orlando,
3

The parties consented to proceed before a magistrate judge
through the entry of final judgment. See 28 U.S.C. § 636(c); Fed.
R. Civ. P. 73.
4
The salient facts are not in dispute and have been
stipulated to by the parties. See Joint App’x 51-66.

4a
and there are no flights at the Airport to a number of
East Coast cities such as Boston, Washington D.C., and
Atlanta.
In 2009, the Connecticut legislature, seeking to
prevent the expansion of Runway 2/20, passed the
Runway Statute, which provides that “Runway 2-20 of
the airport shall not exceed the existing paved runway
length of five thousand six hundred linear feet.” Conn.
Gen. Stat. § 15-120j(c). The Runway Statute prevents
Tweed from extending Runway 2/20 past its current
length.
The short length of the Airport’s runway has
sharply limited the availability of safe commercial air
service at Tweed. The length of a runway has a direct
bearing on the weight load and passenger capacity
that can be handled on any given flight. For example,
at the time of trial, American Airlines, the one
commercial airline providing service to and from the
Airport, was unable to safely fill its planes to capacity
and was required, depending on the weather, to leave
between four and nine seats empty.
Tweed has been unable to attract new airline
services. Tweed has contacted approximately ten
different airlines and has been unable to convince
them to operate out of the Airport. One airline,
Allegiant Air, LLC, began an economic analysis of the
feasibility of bringing additional flights to the Airport
but concluded it would be pointless to continue with
the analysis unless the runway were extended.

5a
Lengthening the runway would allow for the safe
use of larger aircraft, allow flights with no seating
restrictions, allow more passengers on each airplane,
and allow service to more destinations. It would also
allow Tweed to attract more carriers and expand the
availability of safe air service for its customers.
As required by the Federal Aviation Administration
(“FAA”), Tweed has prepared a Master Plan for
upgrading its airport, which includes extending the
runway.5 In 2002, the Master Plan—including the
runway expansion—was approved by the FAA and by
the State of Connecticut. However, in 2009, the State
changed its position and passed the Runway Statute.
Tweed, seeking to lengthen the runway, sued for
prospective injunctive relief, contending that federal
law including the FAAct preempted the Runway Statute.
The City of New Haven intervened as an additional
plaintiff. The State moved to dismiss on several
grounds, including that Tweed lacked Article III
standing, that, as a political subdivision of the State of
Connecticut, Tweed could not sue the State, and that
the Runway Statute was not preempted. The District
Court denied the State’s motion.
At trial, the parties largely relied on a joint
stipulation of facts. The District Court ultimately
concluded that (1) Tweed lacked standing to sue
5

A Master Plan is required by the FAA for each commercial
airport within its jurisdiction, such as Tweed, and represents a
blueprint for the long-term development goals of the airport’s
facilities.

6a
because it had not shown an injury-in-fact and
causation attributable to the Statute; and (2) even if
Tweed had standing, federal law (including the FAAct)
did not preempt the Runway Statute. See generally
Tweed-New Haven Airport Auth. v. Jepsen, No. 15-cv01731, 2017 WL 4400751, 2017 LEXIS 162356 (D.
Conn. Oct. 3, 2017).
Tweed raises both these issues on appeal and the
State contends, as it did below, that Tweed cannot sue
Connecticut because it is a political subdivision of
the State. We review each of these questions de
novo. Montesa v. Schwartz, 836 F.3d 176, 194 (2d Cir.
2016) (standing); N.Y. SMSA Ltd. P’ship v. Town of
Clarkstown, 612 F.3d 97, 103 (2d Cir. 2010) (per
curiam) (preemption).
DISCUSSION
I.
To establish Article III standing, a plaintiff must
prove: “(1) injury-in-fact, which is a ‘concrete and
particularized’ harm to a ‘legally protected interest’; (2)
causation in the form of a ‘fairly traceable’ connection
between the asserted injury-in-fact and the alleged
actions of the defendant; and (3) redressability, or a
non-speculative likelihood that the injury can be
remedied by the requested relief.” W.R. Huff Asset
Mgmt. Co. v. Deloitte & Touche LLP, 549 F.3d 100, 106107 (2d Cir. 2008) (emphasis omitted) (quoting Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560-61, 112 S.Ct.
2130, 119 L.Ed.2d 351 (1992)). Each of these elements

7a
“must be supported adequately by the evidence
adduced at trial.” Lujan, 504 U.S. at 561, 112 S.Ct. 2130
(internal quotation marks and citation omitted). Based
on the facts at trial, we conclude that Tweed meets
each of these requirements.6
First, we have little difficulty concluding that
Tweed suffered an injury-in-fact. Where, as here, “the
plaintiff is himself an object of the action (or forgone
action) at issue . . . , there is ordinarily little question
that the action or inaction has caused him injury, and
that a judgment preventing or requiring the action will
redress it.” Lujan, 504 U.S. at 561-62, 112 S.Ct. 2130.
The Runway Statute directly targets Tweed and
prevents it from extending its runway.
In addition, Tweed has established that it is
injured by the threatened enforcement of the Statute
should Tweed attempt to extend the runway. The State
claims that standing is not available under this theory
because Connecticut has made no overt threat to
enforce the Statute. Crediting this argument would
run afoul of the Supreme Court’s admonition not to put
“the challenger to the choice between abandoning his
rights or risking prosecution.” MedImmune, Inc. v.
Genentech, Inc., 549 U.S. 118, 129, 127 S.Ct. 764, 166
L.Ed.2d 604 (2007) (internal quotation marks omitted).
The very purpose of the Declaratory Judgment Act was
6

Only one party must have standing to seek each form of
relief. Town of Chester v. Laroe Estates, Inc., ___ U.S. ___, 137
S. Ct. 1645, 1651, 198 L.Ed.2d 64 (2017). Because Tweed and the
City of New Haven seek the same relief, we do not separately
discuss the standing of the City.

8a
to avoid requiring a litigant to confront this dilemma.
Id.
When courts consider whether the threatened
enforcement of a law creates an injury for the purposes
of standing, “an actual . . . enforcement action is not a
prerequisite to challenging the law”; a pre-enforcement
challenge is sufficient. Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 158, 134 S.Ct. 2334, 189
L.Ed.2d 246 (2014); see MedImmune, 549 U.S. at 12829, 127 S.Ct. 764; see also Milavetz, Gallop & Milavetz,
P.A. v. United States, 559 U.S. 229, 234, 130 S.Ct. 1324,
176 L.Ed.2d 79 (2010). Where a statute specifically
proscribes conduct, the law of standing does “not place
the burden on the plaintiff to show an intent by the
government to enforce the law against it. Rather, it
[has] presumed such intent in the absence of a
disavowal by the government or another reason to
conclude that no such intent existed.” Hedges v.
Obama, 724 F.3d 170, 197 (2d Cir. 2013). The record in
this case shows no such disavowal.
Second, Tweed has demonstrated that its injury is
caused by the Runway Statute. For standing purposes,
a plaintiff is required only to show that the injury “is
fairly traceable to the challenged conduct of the
defendant.” Spokeo, Inc. v. Robins, 578 U.S. ___, 136
S. Ct. 1540, 1547, 194 L.Ed.2d 635 (2016). Where, as
here, a plaintiff is threatened by the enforcement of a
statute that specifically targets the plaintiff, the
requirement is met. Lujan, 504 U.S. at 561-62, 112
S.Ct. 2130. The Runway Statute is a solid barrier to
extension of the Airport’s runway. Nothing can happen

9a
while the Statute is in place. Tweed’s injury is,
therefore, “fairly traceable” to the Statute.
The District Court concluded that, because other
uncertainties stood in the way of the completion of an
extended runway, the causation element was not
satisfied. The District Court reasoned that because
Tweed would have to obtain additional funding, secure
approvals from various regulators, and obtain
environmental and other permits, none of which was
assured, there did “not appear to be a direct causal
relationship between the statute and the plaintiff ’s
alleged injury.” Tweed-New Haven, 2017 WL 4400751,
at *8, 2017 LEXIS 162356.
As an initial matter, the uncertainties seized upon
by the District Court have no bearing on Tweed’s fears
of the Statute’s enforcement, which is an independent
basis for Article III standing. Further, we disagree with
the District Court’s analysis of the causation element
of standing. A plaintiff is not required to show that a
statute is the sole or the but-for cause of an injury. An
injury can be “fairly traceable” even when future
contingencies of one kind or another might disrupt or
derail a project. The fact that a project’s ultimate
completion may be uncertain because a plaintiff must
undertake additional steps, such as obtaining funding,
environmental permits, or additional carriers, does not
defeat standing. Nearly every project of any complexity
involves contingencies or uncertainties of some sort.
The point of a standing inquiry is not to figure out
whether a plaintiff will likely achieve a desired result.
The point is simply to ensure that a plaintiff has a

10a
sufficient nexus to the challenged action in the form of
a personal stake in the litigation so that the case or
controversy requirements of Article III are met. See
Chevron Corp. v. Donziger, 833 F.3d 74, 121 (2d Cir.
2016).
The Supreme Court has held that there is standing
where “the challenged action of the [government]
stands as an absolute barrier” that will be removed “if
[the plaintiff ] secures the . . . relief it seeks.” Vill. of
Arlington Heights v. Metro. Hous. Development Corp.,
429 U.S. 252, 261, 97 S.Ct. 555, 50 L.Ed.2d 450 (1977).
There, a developer sought to build a cluster of lowand moderate-income townhouses in the Village of
Arlington Heights. Id. at 254, 97 S.Ct. 555. The
developer eventually sued the Village for denying its
application for a zoning variance, alleging racial
discrimination and violations of the Fair Housing Act
of 1968. Id. The Village argued that there was no injury
for standing purposes because contingencies stood in
the way of final completion of the project. Id. at 261 &
n.7, 97 S.Ct. 555.
The Supreme Court, in language fully applicable
here, rejected the view that the existence of
contingencies was a barrier to standing. Id. at 261, 97
S.Ct. 555. The Court held that standing was not
defeated because the developer “would still have to
secure financing, qualify for federal subsidies, and
carry through with construction.” Id. (footnote omitted).
We are, the Court emphasized, “not required to engage
in undue speculation as a predicate for finding that the

11a
plaintiff has the requisite personal stake in the
controversy.” Id. at 261-62, 97 S.Ct. 555.
We have also held that, for standing purposes, it
was enough that plaintiffs alleged “diligent efforts” to
secure funding and had made progress on the project
in question. NAACP v. Town of Huntington, 689 F.2d
391, 394 (2d. Cir. 1982). In Town of Huntington, a notfor-profit housing group sought to construct a large
multi-family housing unit. The group sued the town,
alleging that its zoning regulations violated federal
law. Id. at 393. While the suit was pending, the funds
appropriated for the project lapsed and the town
moved to dismiss the complaint on the ground that the
lack of funding would render the requested relief
(invalidation of the ordinance) meaningless. We
nevertheless found standing because the group had
shown diligent efforts to secure funding and had
shown “some reasonable prospect for future financing”
and obtaining governmental approvals if the statute
was invalidated, which is all that is required. Id. at
394. Tweed comfortably meets this test. It has shown
more than “diligent efforts” toward, and a reasonable
prospect of, the project’s completion.
Third, as to redressability, there is no question
that a favorable decision will likely redress Tweed’s
fear of the Runway Statute’s enforcement. Cayuga
Nation v. Tanner, 824 F.3d 321, 332 (2d Cir. 2016)
(stating that redressability requirement is met where
the court could prevent enforcement of a preempted
law). A favorable decision will also likely redress
Tweed’s current inability to move forward with the

12a
runway extension and will remove the absolute barrier
the Statute imposes. See W.R. Huff Asset Mgmt. Co.,
549 F.3d at 106-107; see also Lujan, 504 U.S. at 560-61,
112 S.Ct. 2130. Accordingly, we hold that Tweed has
established Article III standing.
II.
Next, the State contends that Tweed cannot bring
suit against Connecticut because it is a political
subdivision of Connecticut. As support for this
proposition, the State relies on Williams v. Mayor of
Baltimore, 289 U.S. 36, 53 S.Ct. 431, 77 L.Ed. 1015
(1933), and City of Trenton v. New Jersey, 262 U.S. 182,
43 S.Ct. 534, 67 L.Ed. 937 (1923). Williams involved a
suit under the Equal Protection Clause and Trenton
involved a suit under the Contract Clause and the
Fourteenth Amendment. In both cases, the Supreme
Court held that suits under those provisions were not
permitted. Williams, 289 U.S. at 40, 53 S.Ct. 431; City
of Trenton, 262 U.S. at 188, 43 S.Ct. 534.
The view that subdivisions were broadly prevented
from suing a state was put to rest in Gomillion v.
Lightfoot, 364 U.S. 339, 81 S.Ct. 125, 5 L.Ed.2d 110
(1960). There, the Supreme Court considered a
challenge under the Fourteenth and Fifteenth
Amendments to Alabama’s gerrymandering of the
boundaries of the City of Tuskegee. Id. at 340, 81 S.Ct.
125. The Court rejected Alabama’s assertion that a
state’s power over its political subdivisions was
unrestricted by the Constitution: “Legislative control

13a
of municipalities, no less than other state power, lies
within the scope of relevant limitations imposed by the
United States Constitution.” Id. at 344-45, 81 S.Ct.
125. The Court emphasized that the “correct reading” of
Williams and City of Trenton is “that the State’s
authority is unrestrained by the particular prohibitions
of the Constitution considered in those cases.” Id. at
344, 81 S.Ct. 125. Significantly, none of those cases
involved the Supremacy Clause, which raises unique
federalism concerns.
Hundreds of federal laws apply nationwide to
states and their political subdivisions. They impose
various responsibilities and prohibitions on states and
political subdivisions that are intended by Congress to
apply nationwide. If the Supremacy Clause means
anything, it means that a state is not free to enforce
within its boundaries laws preempted by federal law.
Lawsuits invoking the Supremacy Clause are one of
the main ways of ensuring that this does not occur.
In the years following Gomillion, the Supreme
Court has repeatedly entertained suits against a state
by a subdivision of the state, including cases under the
Supremacy Clause. See Va. Office for Prot. & Advocacy
v. Stewart, 563 U.S. 247, 252-53, 131 S.Ct. 1632, 179
L.Ed.2d 675 (2011) (considering suit by independent
state agency against its state for violation of federal
law alleged to conflict with state law); Nixon v. Mo.
Mun. League, 541 U.S. 125, 130-31, 124 S.Ct. 1555, 158
L.Ed.2d 291 (2004) (considering Supremacy Clause
challenge by municipalities and utilities against state
statute); Lawrence Cty. v. Lead-Deadwood Sch. Dist.,

14a
469 U.S. 256, 258, 105 S.Ct. 695, 83 L.Ed.2d 635 (1985)
(considering Supremacy Clause challenge by county
against state statute); accord Bd. of Educ. v. Allen, 392
U.S. 236, 88 S.Ct. 1923, 20 L.Ed.2d 1060 (1968); see also
Romer v. Evans, 517 U.S. 620, 623-24, 116 S.Ct. 1620, 134
L.Ed.2d 855 (1996) (state constitutional amendment
preventing local anti-discrimination ordinances violated
the Equal Protection Clause); Washington v. Seattle
Sch. Dist. No. 1, 458 U.S. 457, 487, 102 S.Ct. 3187, 73
L.Ed.2d 896 (1982) (state statute prohibiting a local
busing desegregation plan violated the Fourteenth
Amendment).7 In light of this authority, we hold that a
subdivision may sue its state under the Supremacy
Clause. In reaching this conclusion we join the Fifth
and Tenth Circuits. Rogers v. Brockette, 588 F.2d 1057
(5th Cir. 1979); Branson Sch. Dist. RE-82 v. Romer, 161
F.3d 619 (10th Cir. 1998). But see Burbank-GlendalePasadena Airport Auth. v. City of Burbank, 136 F.3d
1360 (9th Cir. 1998) (holding a political subdivision
lacks standing to sue its own state under the
Supremacy Clause).

7

We have held that a political subdivision does not have
standing to sue its state under the Fourteenth Amendment. See
Aguayo v. Richardson, 473 F.2d 1090, 1100 (2d Cir. 1973); City of
New York v. Richardson, 473 F.2d 923, 929 (2d Cir. 1973). Those
cases provide no aid to the State as Tweed is not seeking to assert
its own rights under the Fourteenth Amendment, which presents
considerations different from those we consider here.

15a
III.
Tweed next contends that the Runway Statute is
preempted by the FAAct.8 We agree. The FAAct “was
enacted to create a uniform and exclusive system of
federal regulation in the field of air safety. . . . [It] was
passed by Congress for the purpose of centralizing in a
single authority . . . the power to frame rules for the
safe and efficient use of the nation’s airspace.” Air
Transp. Ass’n of Am., Inc. v. Cuomo, 520 F.3d 218, 22425 (2d Cir. 2008) (internal quotation marks omitted).
With these objectives in mind, we have held that the
FAAct impliedly preempts the entire “field of air
safety.” Goodspeed Airport LLC v. E. Haddam Inland
Wetlands & Watercourses Comm’n, 634 F.3d 206, 21011 (2d Cir. 2011). Accordingly, “[s]tate laws that conflict
with the FAA[ct] or sufficiently interfere with federal
regulation of air safety are . . . preempted.” Fawemimo
v. Am. Airlines, Inc., 751 F. App’x 16, 19 (2d Cir. 2018)
(summary order). Our court has been clear as can be
that FAAct preemption applies to airport runways. Air
Transp. Ass’n, 520 F.3d at 224-25 (FAAct preemption
“extends to grounded planes and airport runways”).
Our next inquiry is whether the Runway Statute
falls within the scope of that preemption. “The key
question is thus at what point the state regulation
sufficiently interferes with federal regulation that it
8

Tweed also contends that the Runway Statute is preempted
by the Airline Deregulation Act and the Airport and Airway
Improvement Act. Because we conclude that the Runway Statute
is preempted by the FAAct, we make no determination concerning
preemption under these other statutes.

16a
should be deemed pre-empted[.]” Gade v. Nat’l Solid
Wastes Mgmt. Ass’n, 505 U.S. 88, 107, 112 S.Ct. 2374,
120 L.Ed.2d 73 (1992). We straightforwardly conclude
that the Runway Statute falls well within the scope of
the FAAct’s preemption because of its direct impact on
air safety.
The Airport has the 13th shortest runway out of
the 348 airports where commercial service is provided.
Furthermore, the State has conceded that “the length
of the runway has a direct bearing on the weight load
and passenger capacity that can be safely handled on
any given flight.” Joint App’x 55. Because of the
Statute, “[w]eight penalties are imposed on [existing]
aircraft [at the Airport] for safety reasons.” Id. The
Statute has limited the number of passengers that can
safely occupy planes leaving the Airport by preventing
planes from taking off at maximum capacity. For these
safety reasons, carriers are forced to cut back on an adhoc basis the number of passengers that can safely be
carried, the amount of baggage they can bring with
them, and the total weight of luggage that can be
loaded.
Additionally, the Runway Statute has sharply
limited the types of planes that can use the runway.
Modern jet passenger planes of the types used across
the country cannot safely use the Airport. This
localized, state-created limitation is incompatible with
the FAAct’s objective of establishing “a ‘uniform and
exclusive system of federal regulation’ in the field of air
safety.” Air Transp. Ass’n, 520 F.3d at 224 (quoting City
of Burbank v. Lockheed Air Terminal, Inc., 411 U.S.

17a
624, 639, 93 S.Ct. 1854, 36 L.Ed.2d 547 (1973)). If every
state were free to control the lengths of runways
within its boundaries, this Congressional objective
could never be achieved.
The inflexibility of the ban imposed by the
Runway Statute also counsels in favor of preemption.
The Runway Statute’s restriction on runway
development is absolute—it is a total barrier to
improvements that could make Tweed safer and more
modern. Courts in this Circuit have held that the
FAAct preempts significantly less rigid statutes that
merely place limitations rather than total bans on
runway modification. For example, in Tweed-New
Haven Airport Authority v. Town of East Haven (“Tweed
I”), the court held that a state regulation that required
regulatory approval before the runway safety areas
could be constructed was preempted. 582 F. Supp. 2d
261, 268-69 (D. Conn. 2008). Similarly, in Town of
Stratford v. City of Bridgeport, the court held that a
statute that required an airport to obtain approval of
the town in which it is located before it can undertake
a federally mandated runway safety project was
preempted. No. 10-cv-394, 2010 WL 11566477, at *6,
2010 LEXIS 65975 (D. Conn. June 18, 2010). Those
statutes merely required state or city approval for
improvements to an airport’s runway. Unlike those
cases, the Runway Statute prohibits runway expansion
entirely. The Statute’s interference with the field of air
safety is, therefore, even greater than was the case
with other statutes courts have held to be preempted
by the FAAct.

18a
Finally, we have noted that FAAct preemption is
less likely to apply “to small airports over which the
FAA has limited direct oversight.” Goodspeed, 634 F.3d
at 211-12. Tweed is not such an airport. On the
contrary, the FAA’s involvement with Tweed and its
runway project has been direct and significant. The
Airport is federally regulated and exists within the
Tweed-New Haven Airport Layout Plan (“ALP”), which
is approved by the FAA. The FAA maintains full
control over any modification to the ALP, including
runway length. The Airport is classified by the FAA as
a primary commercial service airport and is required
to hold an operating certificate under FAA regulation
14 C.F.R. Part 139. A Master Plan is required of all Part
139 airports, and Tweed’s Master Plan, which includes
extending the length of the runway up to 7,200 feet,
was approved by the FAA as far back as 2002. This
level of federal interest and involvement is further
indication that the Runway Statute is preempted.
In response to all of this, the State maintains
that implied preemption is not warranted because the
Runway Statute “does not prevent Tweed from
complying with any federally-mandated safety
standards.” Appellee’s Br. at 56-57. But the State
confuses different branches of implied preemption law:
conflict preemption and field preemption. Conflict
preemption exists when a state law “actually conflicts
with federal law,” English v. Gen. Elec. Co., 496 U.S. 72,
79, 110 S.Ct. 2270, 110 L.Ed.2d 65 (1990), in other
words, where “state law stands as an obstacle to the
accomplishment” of Congress’s intent, Hillsborough

19a
County v. Automated Med. Labs., Inc., 471 U.S. 707,
713, 105 S.Ct. 2371, 85 L.Ed.2d 714 (1985). This case
involves field preemption, not conflict preemption.
Field preemption exists where “Congress intended the
Federal Government to occupy [a field] exclusively.” Air
Transp. Ass’n, 520 F.3d at 220. And as we have seen,
Congress intended the FAAct to occupy the entire field
of air safety including runway length.
The State next asserts that the FAAct does not
preempt the Runway Statute because here, unlike in
Tweed I, no federal mandate requires that Tweed
extend its runway. See Appellee’s Br. at 58. This
characterization misses the point. Preemption analysis
does not turn on whether the airline safety activity is
mandated by the federal government; the dispositive
question is whether the Runway Statute intrudes into
the field of air safety. We conclude that it does and does
so directly. For these reasons, we hold that the Runway
Statute is preempted by the FAAct.
CONCLUSION
The judgment of the lower court is REVERSED
and the case is REMANDED for entry of judgment in
favor of Tweed.

20a
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of July, two
thousand and nineteen.
Before:

Robert D. Sack,
Barrington D. Parker,
Denny Chin,
Circuit Judges.

Tweed New Haven Airport
Authority,
Plaintiff - Appellant,
City of New Haven,
Intervenor-Plaintiff Appellant,

JUDGMENT
Docket No.
17-3481(L), 17-3918
(Con.)

v.
William Tong, in his official
capacity as Attorney General
for the State of Connecticut,
Defendant - Appellee.
The appeal in the above captioned case from a
judgment of the United States District Court for
the District of Connecticut was submitted on the

21a
district court’s record and the parties’ briefs. Upon
consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the judgment of the district court is
REVERSED, and the case is REMANDED for entry of
judgment in favor of Tweed New Haven Airport
Authority.
For The Court:
Catherine O’Hagan Wolfe,
Clerk of Court
[SEAL]
/s/ Catherine O’Hagan Wolfe

22a
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
TWEED-NEW HAVEN
AIRPORT AUTHORITY,
Plaintiff,
v.
GEORGE JEPSEN, IN HIS
OFFICIAL CAPACITY AS
ATTORNEY GENERAL
FOR THE STATE OF
CONNECTICUT

CASE NO.
3:15cv01731 (RAR)

Defendant.
JUDGMENT
(Filed Jul. 31, 2019)
This action came to trial on May 22, 2017 before
the Honorable Robert A. Richardson, United States
Magistrate Judge. After a bench trial, the Court
entered judgment in favor of the defendants on all
counts. Thereafter, the Second Circuit Court of Appeals
reversed the judgment.
It is therefore ORDERED, ADJUDGED and
DECREED that judgment is hereby entered in favor of
the plaintiff, Tweed New Haven Airport Authority, on
all counts.

23a
Dated at Hartford, Connecticut, this 31st day of
July, 2019.
ROBIN D. TABORA, CLERK
By /s/ Robert A. Richardson, U.S.M.J.
Angela Blue
Deputy Clerk

24a
2017 WL 4400751
Only the Westlaw citation is currently available.
United States District Court, D. Connecticut.
TWEED-NEW HAVEN AIRPORT
AUTHORITY, Plaintiff,
v.
George JEPSEN, in His Official Capacity as Attorney
General for the State of Connecticut, Defendant.
CASE NO. 3:15cv01731 (RAR)
|
Signed 10/03/2017
Attorneys and Law Firms
John Charles King, Christopher A. Klepps, Updike,
Kelly & Spellacy, P.C., Hartford, CT, Hugh I. Manke,
Updike, Kelly & Spellacy, P.C., New Haven, CT, for
Plaintiff.
Drew S. Graham, Office of the Attorney General,
Hartford, CT, for Defendant.
MEMORANDUM OF DECISION
Robert A. Richardson, United States Magistrate
Judge
Plaintiff, Tweed-New Haven Airport Authority
(hereinafter “Plaintiff ” or “the Authority”), brings this
suit against George Jepsen in his official capacity as
Attorney General for the State of Connecticut
(“Defendant”), seeking declaratory relief pursuant to
the Declaratory Judgment Act, 28 U.S.C. § 2201 et seq.

25a
(Dkt. # 1). Plaintiff alleges that Conn. Gen. Stat. 15120j(c) violates the Supremacy Clause of the United
States Constitution.
For the reasons set forth below, the Court finds
that the plaintiff lacks standing to bring this action
and that Conn. Gen. Stat. 15-120j (c) is not preempted
by the Supremacy Clause.
PROCEDURAL BACKGROUND
Plaintiff filed this action on November 24, 2014 in
federal court. (Dkt. # 1). On June 30, 2016, the
defendant filed a Motion to Dismiss. (Dkt. # 39). On
August 8, 2016, plaintiff filed a memorandum in
opposition to defendant’s motion to dismiss. (Dkt. # 44).
On August 22, 2016, the defendant filed a reply
memorandum in support of its motion to dismiss. (Dkt.
# 45). On September 29, 2017, the Court held oral
argument on the motion to dismiss. (Dkt. # 49). On
December 9, 2016, the undersigned denied the motion
to dismiss. (Dkt. # 53).
A bench trial was held on March 22, 2017 before
the undersigned. (Dkt. # 67). On May 19, 2017, the
parties submitted simultaneous post-trial briefs. (Dkt.
#’s 73-74). On July 19, 2017, at the request of the
parties, oral argument was held on the post-trial briefs.
(Dkt. # 77).

26a
FACTUAL BACKGROUND
The following facts, drawn from the parties’
Stipulation of facts in their Joint Trial Memorandum,
are undisputed. (Dkt. # 59, Stipulation of Facts).1
Tweed-New Haven Airport Authority is a public
instrumentality and political subdivision of the state
of Connecticut, pursuant to Conn. Gen. Stat. 15-120i,
et seq. (Stip. # 2). The airport property is owned by the
City of New Haven and leased to the Authority
pursuant to the terms of a Lease and Operating
Agreement, dated July 1, 1998. (Stip. # 7).
The length of Runway 2/20 is currently
approximately 5,600 linear feet. (Stip. # 9). In 2009, the
state of Connecticut, through Public Act 09-7, amended
Conn. Gen. Stat. § 15-120j by adding subsection (c)
which provides, in relevant part: “Runway 2/20 of the
airport shall not exceed the existing paved runway
length of five thousand six hundred linear feet.” (Stip.
# 9).
The Airport is among the public-use airports
included in the National Plan of Integrated Airport
Systems. (Stip. # 10). The Airport consists of numerous
structures, including an airport terminal building and
an air-rescue and fire-safety facility, Runway 2/20,
which runs essentially North/South on the site,
crosswind Runway 14/31, which runs Northwest/
Southeast, and a number of taxiways. (Stip. # 12). All
of these structures are within the Airport’s boundaries
1

The stipulated facts are hereafter referred to as “Stip. #.”

27a
and are part of the Airport Layout Plan (“ALP”). (Stip
# 13). The ALP is approved by the FAA, which
maintains full control over any modifications to the
ALP, including limitations on runway length. (Stip.
# 13).
The Airport is classified by the United States
Department of Transportation Federal Aviation
Administration (“FAA”) as a primary, commercial
service airport in that it provides regularly scheduled
commercial passenger air service. (Stip. # 14). As a
result of this classification, the Airport is currently
required to, and does, hold an operating certificate
under FAA regulation part 139 (14 C.F.R. Part 139),
which currently requires the Airport to have runway
safety areas on its main runway that are acceptable to
the FAA. (Stip. # 14).
Part 139 establishes the rules governing the
certification and operation of airports serving
scheduled passenger-carrying operations of an air
carrier operating aircraft configured for more than 9
passenger seats. (Stip. # 15). The Airport is required
under Part 139 to operate and maintain the Airport
according to standards contained in the FAA Advisory
Circulars. (Stip. # 15). Additionally, as a recipient of
federal aid under the FAA Airport Improvement
Program (“AIP”), the Airport is required to comply with
AIP grant assurances. (Stip. # 15).
The FAA requires a master plan that outlines
future plans for upgrading airport facilities for each
Part 139 airport. (Stip. # 16). The Airport’s updated

28a
master plan for the Airport, which included extending
the length of Runway 2/20 up to 7,200 linear feet, was
approved by the state and by the FAA in 2002. (Stip.
# 16).
There is one commercial airline providing service
to the Airport from Philadelphia, with four scheduled
flights per day in each direction and a capacity of no
more than 37 passengers on each flight. (Stip. # 17).
The length of the runway has a direct bearing on the
weight load and passenger capacity that can be safely
handled on any given flight. (Stip. # 17).
Since 2009, the Airport has failed to attract a
single new scheduled commercial carrier, and service
remains low, with fewer than 35,000 emplanements
per year. (Stip. # 18). Weight penalties are imposed on
aircraft for safety reasons, and a longer runway could
potentially reduce or eliminate the weight penalties
that are imposed on existing flights at the Airport.
(Stip. # 19). Current scheduled commercial service at
the Airport is entirely provided by a single type of
aircraft, the Bombardier DH8-100 (the “Dash 8”). (Stip.
# 20).
Runway 2/20, because of its length, does not allow
the Dash 8 to takeoff at maximum capacity. (Stip. # 21).
The Dash 8 has capacity for 37 passengers, but
generally only 33 passengers are allowed on the plane.
(Stip. # 6). Lengthening Runway 2/20 would allow the
Dash 8 and other larger aircrafts to potentially service
the Airport, hold more passengers and service
additional destinations. (Stip. # 22).

29a
The Airport has commenced planning on a runway
extension project to increase the functioning length of
Runway 2/20, within the existing boundaries of the
Airport and the ALP, on land that is currently part of
the runway safety areas. (Stip. # 23). The planning
documents describe several alternatives for lengthening
Runway 2/20 up to 6,601 linear feet and modifying
related taxiways. (Stip. # 23). The initial step in the
Project is to perform an Environmental Assessment of
the various layout and construction options. (Stip.
# 23). The Authority has expended private funds to
hire Hoyle, Tanner & Associates, Inc. (“Hoyle”), a
consulting engineering firm, which has conducted a
preliminary environmental assessment. (Stip. # 23).
Robert M. Furey is Senior Vice President at
Hoyle, which is located in Manchester, NH. (Stip. # 25).
Hoyle specializes in airport planning, design and
construction administration and has performed
engineering work for the Authority since 1999. (Stip.
# 27). Mr. Furey has personal knowledge regarding the
Preliminary Environmental Assessment at the Airport
and the environmental assessment process. (Stip.
# 26). Federal review and comment is necessary for
any construction project located within the ALP, and
one of the initial steps in any such project under the
applicable federal regulations is to submit an
Environmental Assessment to the FAA. (Stip. # 28).
Hoyle looked at a number of alternatives for
lengthening Runway 2/20 ranging from 6,601 linear
feet up to 7,000 linear feet. (Stip. # 29). The Authority
proposes to pave a portion of the Runway 2/20 runway

30a
safety areas and this paved section would be
considered a runway extension. (Stip. # 24).
In 2014, Hoyle completed the first three chapters
of an Environmental Assessment, as the customary
procedure is to submit a Preliminary Environmental
Assessment to the FAA for review and comment before
drafting the full Environmental Assessment. (Stip. #’s
30-31). The ultimate document that the Authority
submitted to the FAA for review included only runway
alternatives that were not longer than 6,601 linear
feet. (Stip. # 29).
The FAA has declined to review and comment on
the content of the Preliminary Environmental
Assessment for more than two years. (Stip. # 32). The
FAA has not provided funding to the Project and has
not reviewed the alternative layouts presented in the
Preliminary Environmental Assessment. (Stip. # 32).
FAA review of the Preliminary Environmental
Assessment is a necessary step in the Environmental
Assessment process. (Stip. # 33).
The FAA is not proceeding with review of the
Environmental Assessment in part because the
Authority is in violation of several federal grant
assurances and regulations. (Stip. # 34). The FAA’s
decision not to respond to the Authority’s request for
review of the Preliminary Environmental Assessment
is in part because of the runway length limitation in
Connecticut General Statutes § 15-120j(c). (Stip. # 35).
Whenever the Authority accepts federal funds, it
agrees to various grant assurances which, among other

31a
things, require compliance with a long list of federal
statutes and regulations directed to airport facilities
and operations. (Stip. # 36). Non-compliance by an
airport such as Tweed can result in enforcement action
by the FAA. (Stip. # 36).
FAA Advisory Circular 150/5300-13A, Airport
Design, establishes criteria for the separation of
runways and parallel taxiways. (Stip. # 37). The runway
to taxiway separation distance is a function of the
Airport Reference Code. (Stip. # 37). The ALP approved
by the FAA for the Airport identifies the primary
runway, Runway 2/20, as a C-III runway. (Stip. # 37).
The designation C-III includes aircraft with approach
speeds of 121 knots or more but less than 141 knots,
and wingspans greater than 79 feet but less than 118
feet. (Stip. # 37).
The interactive runway design standard matrix
(Table 3-5) in FAA Advisory Circular 150/5300-13A
specifies that the runway centerline to parallel
taxiway centerline for C-III aircraft is 400 feet. (Stip.
# 38). The current locations and dimensions of
taxiways, which are integral to the aircraft landing
and takeoff system, are not in compliance with federal
regulations in terms of their distance from Runway
2/20. (Stip. # 39). This non-standard separation between
the taxiway and the runway could be brought into
compliance as part of the proposed runway extension
project. (Stip. # 39).
Hoyle prepared drawings depicting improvements
to Taxiways A, F and G at the Airport. (Stip. # 40). The

32a
primary safety improvement alternative is to extend
the runway with a taxiway centerline separation to the
required distance of 400 feet, in accordance with FAA
Advisory Circular 150/5300-13A, Table 5. (Stip. # 40).
This would provide the Airport and FAA with safer
runway and taxiway ground maneuvering as well as
greater separation between active takeoff and landing
operations and aircraft which are either holding short
or maneuvering adjacent to the runway. (Stip. # 40).
The alternatives identified in the Preliminary
Environmental Assessment include the extension of
the parallel taxiway. (Stip. # 41). A full length parallel
taxiway is required for runways with instrument
approach procedures with visibility minimums below
one mile. (Stip. # 41). The existing Runway 2/20
instrument landing system approach has visibility
minimums of ¾ mile. (Stip. # 41). Construction of the
parallel taxiway at the standard 400 foot runway
centerline to taxiway separation would bring the
airport into compliance with FAA standards. (Stip.
# 41).
Although there is no enforcement action pending
by the FAA against the Authority due to the nonstandard separation between the taxiway and the
runway, the FAA has issued notice to the Authority
that the Authority is not in compliance with all of the
requirements of CV.F.R/ part 139, the Airport
Certification Manual and the Airport Operating
Certificate. (Stip. # 42). The FAA expects the Authority
to achieve the standard 400 foot separation between
Taxiway A and Runway 2/20 and the 400 foot

33a
separation has been included in the Preliminary
Environmental Assessment. (Stip. # 42).
The Authority is not in compliance with FAA
design standards due to the non-standard taxiway
geometry. (Stip. # 43). The FAA has given the Authority
until May 6, 2021 to redesign and reconstruct its
taxiways, including realignment of Taxiway A, to bring
the Airport into compliance with federal design
standards. (Stip. # 43). There is no current or pending
FAA enforcement action against the authority for
noncompliance with any FAA safety standard applicable
to 49 U.S.C. Part 139 airports or any standard contained
in FAA Advisory Circular 150/5300-13A. (Stip. # 44).
Tom Reich, the Director of Air Service
Development at AFCO AvPorts Management, LLC, has
provided marketing services to the Tweed-New Haven
Airport and for other airports around the country.
(Stip. # 45). He was previously employed as a market
analyst for Independent Air and as the Manager of
Market Planning for Colgan Air’s United Express
and US Airways Express branded operations. (Stip. #
45). Mr. Reich has provided marketing services for the
Airport since December 2011. (Stip. # 46). During the
time that he has provided marketing services to the
Airport, Mr. Reich has been in touch with
approximately ten different airlines with regard to the
possibility of those airlines bringing service to the
airport. (Stip. # 46).
From 2012 to 2016, Mr. Reich attended the
Airports Council International—North America

34a
JumpStart Air Service Development Conference, where
airlines and airport administrators convene annually.
(Stip. # 48). Mr. Reich has met with numerous airline
representatives at the JumpStart conferences with
regard to the possibility of those airlines bringing
service to the Airport, and has remained in steady
contact with airline representatives throughout the
years, even outside of JumpStart conferences. (Stip. #
48).
In Mr. Reich’s experience, there are three primary
factors that determine whether or not an airline will
choose to provide service to a given destination: (1)
market size; (2) equipment performance; and (3)
economic viability. (Stip. # 49). One analysis, completed
by AvPort, shows that the South-Central Connecticut
market is the largest catchment area in the United
States in terms of existing passenger demand without
nonstop flights to Orlando, Florida. (Stip. # 50).
In Mr. Reich’s experience, the overriding issue
with respect to an airline choosing to provide service to
a new destination is economic viability. (Stip. # 51).
Runway length is an integral part of an airline’s
economic viability analysis due to the weight restrictions
a shorter runway can cause and the resulting limit to
the number of passengers that can be carried on the
flight. (Stip. # 51). Lengthening a runway could
eliminate safety concerns and could reduce the need
for these weight restrictions at a given airport,
allowing aircraft to carry more passengers while
increasing the profit potential of the flight to an
acceptable level for the airline. (Stip. # 52)

35a
In Mr. Reich’s experience, weight restrictions can
impose economic impediments at airports, such as
Tweed, with short runways. (Stip. # 53). The Airport
has the thirteenth shortest runway out of 348 airports
where commercial service is provided, and according to
the AvPorts analysis, the twelve airports with shorter
runways do not have as large a catchment area as
Tweed-New Haven Airport. (Stip. # 53). Tweed-New
Haven Airport has the shortest runway in the nation
for catchment areas with $1,000,000 or more people.
(Stip. # 53).
Allegiant Air has prepared this type of economic
analysis for the Airport and has declined to service the
Airport because “runway 2/20 is too short for Allegiant
to comfortably operate regularly scheduled commercial
service.” (Stip. # 55). Over his last five years providing
marketing services to the Airport, Mr. Reich has been
unable to convince any new airlines to commence
service at Tweed. (Stip. # 57).
Over the past eight years the Authority has been
operating the Airport at a loss which has required
annual subsidies from the state of Connecticut in the
amount of $1,500,000 and from the City of New Haven
in the amount of $325,000. (Stip. # 58). The subsidy
from the State was reduced to $1,480,000 for fiscal year
2016-2017. (Stip. # 58). Notwithstanding marketing
efforts, the Authority has not received a commitment
from any airline to provide service at the Airport if the
statutory restriction on the length of Runway 2/20 is
removed. (Stip. # 59).

36a
In 2009, a Memorandum of Agreement (“MOA”)
was established among the City of New Haven, the
Town of East Haven, the Authority and certain members
of the General Assembly. (Stip. # 60). The MOA limits
Runway 2/20 to the existing paved runway length of
5,600 feet. (Stip. # 61). It also limits daily commercial
departures to thirty and annual emplanements to
180,000. (Stip. # 61).
Section III of the MOA references a bill for
adoption in the 2009 Legislative Session that limited
the length of the runway, increased the number of
members of the Authority’s Board of Directors to be
appointed by the Town of East Haven and City of New
Haven related to the airport property. (Stip. # 62),
Section III also called for additional appropriations for
the Authority in the two fiscal year budgets being
considered in the 2009 Legislative Session that would
have reduced the capital bond commitment of the
State to the Airport. (Stip. # 62)
The bill reducing the capital bond authorization
was defeated and the restriction on the runway and the
change in board membership in the designated bill
were adopted, but the payment in lieu of taxes portion
of the bill was not adopted and $1.5 million of
additional appropriations were approved, whereas the
MOA called for $2 million. (Stip. # 62). The items that
were not adopted in the 2009 Legislative Session have
not been adopted by subsequent General Assembly
action. (Stip. # 62).

37a
Section IV of the MOA provides in pertinent part:
“[T]his agreement may be terminated by written notice
by either the City or the Town in the event . . . (c) the
State of Connecticut fails to enact the Legislative
Initiatives contained in Section III of this Agreement
in the 2009 Legislative Session.” (Stip. # 63). To date,
the City of New Haven has not taken steps to
invalidate the MOA. The Authority does not appear to
have the power, pursuant to the MOA, to unilaterally
terminate the MOA. (Stip. # 64).
The Connecticut Coastal Management Act
discourages the substantial expansion of existing
airports within the coastal boundary. (Stip. # 64). Two
permits from the Connecticut Department of Energy
and Environmental Protection (“DEEP”) were previously
issued to the Authority for the construction of runway
safety areas. One of the permits, the tidal permit,
states: “At no time shall the permittee modify the
surfaces of the RSAs including paving.” The second
permit, for disturbing wetlands and water quality,
requires a modification to the permit from the DEEP if
the safety areas are altered. (Stip. # 66).
The FAA has indicated to the Authority that if it
wishes to continue with its proposed runway extension
project, the Authority must develop a joint action plan
with DEEP addressing the Agency’s concerns
identified in the two previously issued permits. (Stip. #
67).
If Conn. Gen. Stat. § 15-120j(c) is removed or
invalidated, the Authority intends to file an application

38a
seeking DEEP approval to remove the conditions in
the permits mentioned above. (Stip. # 68). Increasing
the length of Runway 2/20 would require the Authority
to ensure that all new approach surfaces are clear for
approaching aircraft. (Stip. # 69). The Authority is
currently in the process of ensuring that such surfaces
are clear for a 6,601 foot runway. (Stip. # 69). The normal
approval process for a runway extension requires: (a)
careful planning, including review of feasible
alternatives; (b) proper environmental analysis,
consistent with federal regulations; and (c) sufficient
funding, including federal, state and/or local sources.
(Stip. # 70).
The Airport Improvement Program (“AIP”) provides
about $3.5 billion annually versus an estimated need
of over $40 billion over the next five years. Accordingly,
dollars must be allocated to the highest national
priorities that are eligible and justified. (Stip. # 71).
The Authority received approximately $24 million
from the FAA in 2008 for its runway safety area project
and has received over $40 million from the FAA in the
past twenty years. (Stip. # 72).
DISCUSSION
I.

Article III Standing

The defendant argues that the plaintiff has not
sustained its burden of establishing the “injury in fact”
necessary to confer standing, thereby depriving the
Court of jurisdiction over this matter. (Dkt. # 74 at 2).
Plaintiff argues, in response, that it has sustained

39a
multiple legally cognizable injuries, any one of which
alone would satisfy the injury in fact requirement of
standing. (Dkt. # 73 at 6).
In the Court’s ruling on the motion to dismiss, the
undersigned found that the plaintiff ’s pleadings had
satisfied the burden of establishing an injury in fact
sufficient to confer standing. However the standard of
proof for establishing Article III standing is higher
following a trial. See Lujan v. Defs. of Wildlife, 504 U.S.
555, 561, 112 S. Ct. 2130, 2137, 119 L.Ed. 2d 351 (1992)
(“At the pleading stage, general factual allegations of
injury resulting from the defendant’s conduct may
suffice, for on a motion to dismiss we ‘presum[e] that
general allegations embrace those specific facts that
are necessary to support the claim.’ ”)
Article III, § 2 of the United States Constitution
restricts federal courts to deciding “ ‘Cases’ and
‘Controversies.’ ” Lujan, 504 U.S. at 559. The “case-orcontroversy requirement is satisfied only where a
plaintiff has standing.” Sprint Commc’ns Co., L.P. v.
APCC Servs., Inc., 554 U.S. 269, 273 (2008). “Three
elements comprise the ‘irreducible constitutional
minimum’ of standing: (1) the plaintiff must have
suffered an injury-in-fact—an invasion of a legally
protected interest that is (a) concrete and particularized,
and (b) actual or imminent, not conjectural or
hypothetical; (2) there must be a causal connection
between the injury and the challenged conduct; and (3)
it must be likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
All. for Open Soc’y Int’l, Inc. v. U.S. Agency for Int’l

40a
Dev., 651 F.3d 218, 228 (2d Cir. 2011), aff ’d sub nom.
Agency for Int’l Dev. v. All. for Open Soc’y Int’l, Inc., 133
S. Ct. 2321, 186 L.Ed. 2d 398 (2013). “The party
invoking federal jurisdiction bears the burden of
establishing these elements.” Lujan, 504 U.S. at 561.
Plaintiff first argues that the Airport is injured by
virtue of the mere existence of Conn. Gen. Stat. § 15120j(c). (Dkt. # 73 at 6-8). Specifically, plaintiff argues
that the “statute’s existence is sufficient to confer
standing on Tweed because Tweed is currently injured
by its inability to proceed with an FAA and state
approved runway extension project.” (Dkt. # 73 at 7).
Plaintiff further contends that this “injury can be
redressed by a decision declaring General Statutes
§ 15-120j(c) unconstitutional. (Dkt. # 73 at 7).
The defendant does not reply directly to plaintiff ’s
argument. However, the defendant describes several
obstacles to lengthening Runway 2/20, apart from
Conn. Gen. Stat. § 15-120j(c). The defendant notes
that the normal approval process for a runway
extension requires three things: “(a) careful planning,
including review of feasible alternatives; (b) proper
environmental analysis, consistent with federal
regulations; and (c) sufficient funding, including
federal, state and/or local sources.” (Dkt. # 74 at 22).
While the Authority had taken significant steps in
planning the proposed runway, including hiring Hoyle,
Tanner & Associates at its own expense to conduct a
Preliminary Environmental Assessment, plaintiff faces

41a
serious hurdles to securing FAA approval as well as
adequate funding. (See Dkt. # 59, Stip. # 23).
Federal review and comment is necessary for any
construction project located within the ALP. (Dkt. # 59,
Stip. # 28). One of the initial steps under the applicable
federal regulations in such a project is to submit an
Environmental Assessment. (Dkt. # 59, Stip. # 28). The
FAA has declined to review and comment on the
content of the Authority’s Preliminary Environmental
Assessment for more than two years. (Dkt. # 59, Stip.
# 32).
The FAA is not proceeding with review of the
Environmental Assessment for a variety of reasons,
including because the Authority is in violation of
several federal grant assurances and regulations. (Dkt.
# 59, Stip. # 34). Additionally, two permits were
previously issued by the DEEP for the construction of
runway safety areas. (Dkt. # 59. Stip. # 66). The FAA
has indicated to the Authority that if it wishes to
continue with its proposed runway extension project,
the Authority must develop a joint action plan with the
DEEP addressing the agency’s concerns identified in
the two previously existing permits. (Dkt. # 59, Stip. #
67). Thus, the existence of Conn. Gen. Stat. § 15-120j(c)
represents one of several factors preventing the FAA
from reviewing the Preliminary Environmental
Assessment.
Additionally, projects utilizing federal funding
must be both eligible and justified at the time of the
investment, including runway extensions. (Dkt. # 59,

42a
Stip. # 73). The Airport Improvement Program provides
about $3.5 billion annually versus an estimated need
of over $40 billion over the next five years. (Dkt. # 59,
Stip. # 71). Accordingly, dollars must be allocated to the
highest national priorities that are eligible and
justified. (Dkt. # 59, Stip. # 71).
The Authority received approximately $24 million
dollars from the FAA in 2008 for its runway safety area
project and it has received approximately $40 million
from the FAA in the past twenty years. (Dkt. # 59, Stip.
# 73). The defendant emphasizes that the current
circumstances are not equivalent to those that existed
in 2008, when the Authority received funding for a
project concerned with safety and where there was a
current enforcement action by the FAA pending
against the Airport. (Dkt. # 74 at 23).
The defendant also notes that just because the
FAA has approved an ALP or Master Plan for an
airport, as it has in this case, it does not follow that the
agency must provide funding to that airport to make
that plan a reality. (Dkt. # 74 at 23). The defendant
states that “the FAA’s discretion to fund airport
improvements remains subject to a ranking in which
safety concerns have the highest priority.” (Dkt. # 74 at
23; trial transcript at 134-35).
The Court is persuaded by the defendant’s
arguments. In light of the fact that the Airport would
have to remedy its violation of several federal grant
assurances and obtain DEEP approval before
proceeding with any runway expansion project, there

43a
does not appear to be a direct causal relationship
between the statute and the plaintiff ’s alleged injury.
Additionally, even if the Authority were to
overcome these obstacles, it is uncertain that the FAA
would provide the necessary funding for plaintiff to
complete the proposed runway project. For these
reasons, the Court finds plaintiff ’s argument that it is
injured by the mere existence of the statute to be
unpersuasive.
Plaintiff next argues that the statute has directly
led to inadequate revenue at the airport and
chronically low service levels, and that the evidence
presented at trial proves this. (Dkt. # 73 at 8). Plaintiff
contends that the dire financial situation of the airport
is tied to the chronically low services levels and that
the low service levels are “inextricably tied to the
current length of Runway 2/20.” (Dkt. # 73 at 8).
Plaintiff claims that these injuries can be
redressed by invalidating Conn. Gen. Stat. § 15-120j(c).
(Dkt. # 73 at 8).
Plaintiff states that over the last eight years the
Authority has been operating at a loss which has
required annual subsidies from the state and the City
of New Haven. (Dkt. # 73 at 10; Exhibit B). Since 2009,
the Airport has experienced an average annual
operating loss of $1,800,000. (Dkt. # 73 at 10; Dkt. # 59,
Stip. # 58; Exhibit B). According to the testimony of Mr.
DeCoster, “the lengthening of the runway is the
absolute door opener in order to have a chance at

44a
improving the financial condition of the airport.” (Trial
transcript at 99).
Mr. DeCoster also testified that if additional
service were brought to Tweed, “[i]t would absolutely
increase direct and indirect revenue and make a major
impact on the deficit that occurs today.” (Trial
transcript at 100). According to plaintiff, “[a] longer
runway would permit Tweed to accommodate new
commercial service which would result in additional
revenue for the Airport, alleviate its annual operating
losses and significantly reduce state and local
subsidies.” (Dkt. # 73 at 12).
The defendant argues that the evidence fails to
show that the state statute has caused plaintiff the
loss of current business, and therefore plaintiff fails to
show that it has suffered an injury. (Dkt. # 74 at 14).
The defendant notes that “[w]hile evidence presented
at trial shows that the runway was 5,600 linear feet
prior to the passage of Conn. Gen. Stat. § 15-120j(c) in
2009, no evidence has been presented suggesting that
service levels at the Airport have become chronically
low or lower since then.” (Dkt. # 74 at 14). Defendant
also notes that plaintiff ’s witnesses failed to account
for the service levels at the Airport prior to 2009 or
indicate whether there has been or currently is a
market demand for any new type of commercial service
to or from the airport. (Dkt. # 74 at 141; trial transcript
at 129).
The Court finds that plaintiff ’s failure to account
for the financial status of the airport prior to the

45a
passage of the state statute in 2009 constitutes a
significant problem. Plaintiff must prove that the
downturn in the Airport’s financial situation is a direct
result of the passage of Conn. Gen. Stat. § 15-120j(c) in
order to show a causal relationship between the
statute and the alleged injury.
Plaintiff next argues that Tweed is unable to
attract new commercial services to the Airport as a
result of Conn. Gen. Stat. § 15-120j(c). (Dkt. # 73 at 12).
Plaintiff claims that the evidence adduced at trial
shows that the length of Runway 2/20 has already
deterred at least one commercial carrier from bringing
service to Tweed, and that the Airport will be unable
to attract new commercial service if Runway 2/20 is not
lengthened.
The parties stipulated to the fact that despite
marketing efforts and various attempts to attract new
service, the Authority has failed to attract a single
new scheduled commercial carrier since 2009. (Stip.
# 18). The parties also stipulated that during the six
years that Mr. Reich has been providing marketing
services to the Airport, he has been in touch with
approximately ten different airlines with regard to the
possibility of bringing service to the Airport. (Stip.
# 47). Nonetheless, Mr. Reich has been unable to
convince a single airline to commence service at the
Airport. (Stip. # 57).
Plaintiff argues that there is a direct link between
the Authority’s inability to attract new commercial
service and the length of Runway 2/20. (Dkt. # 73 at

46a
14). Plaintiff notes that in Mr. Reich’s experience, “the
overriding issue with respect to an airline choosing to
provide service to a new destination is economic
viability.” (Dkt. # 73 at 14). Plaintiff claims that runway
length is an integral part of an airline’s economic
viability analysis, and that Tweed is effectively
handicapped by its inability to lengthen the runway
because it prevents the Airport from even getting a
place at the table to negotiate with commercial air
carriers. (See Dkt. # 73 at 14-15; Dkt. # 59, Stip. # 51;
Reich Affid. at ¶ 11).
Nonetheless, plaintiff notes that it has received
“real and substantial interest from Allegiant Air, LLC
in terms of bringing commercial service to the airport.”
(Dkt. # 73 at 15; see Exhibit 10). Mr. DeCoster testified
that Allegiant Air is one of the fastest growing, ultralow cost fares in the industry. (Trial transcript at 57).
Plaintiff alleges Allegiant cannot proceed with its
analysis of Tweed as a potential market specifically
because Runway 2/20 is too short for Allegiant to
comfortably operate regularly scheduled commercial
service with its current fleet of planes.2 (Dkt. # 73 at
15-16).
2

Mr. DeCoster gave his opinion on whether Allegiant Air
might be willing to bring service to Tweed if the runway is
lengthened (trial transcript at 94-95), it would have been helpful
had Tweed called a representative from Allegiant to testify on this
subject. As Exhibit 10 indicates, Allegiant has not yet gone
forward with its analysis of Tweed as a potential market. There
is nothing in the record which establishes what factors Allegiant
would want to analyze or how Tweed would likely fare with
respect to each such factor.

47a
The defendant argues that “the evidence does not
support the plaintiff ’s contention that it has incurred
specific lost business opportunities due to the runway
limitation in Conn. Gen. Stat. § 15-120j(c).” (Dkt. # 74
at 11). The defendant argues that Plaintiff ’s Exhibit 10
does not prove a lost business opportunity. Exhibit 10
is a letter from Allegiant to the FAA, in which Allegiant
indicated its willingness to reopen its analysis of
whether it would be economically viable to bring
regularly scheduled commercial service to Tweed if the
runway were lengthened. The defendant notes that the
“Allegiant letter itself contains too many contingencies
to show a specific lost business opportunity for the
plaintiff based on the length of the runway.” (Dkt. # 74
at 12; see Exhibit 10). The defendant also argues that
“there is a complete dearth of evidence showing that
any airline has even considered whether regularly
scheduled commercial service to the Airport could or
would be economically feasible with a lengthened
runway.” (Dkt. # 74 at 15; trial transcript at 73, 12830). The Court agrees.
Citing In re Old Carco LLC, 470 B.R. 688, 692
(S.D.N.Y. 2012) (hereinafter “In re Old Carco”), the
plaintiff argues that it has standing to seek
prospective declaratory relief before exposing itself to
actual injury. (Dkt. # 73 at 17-19). Plaintiff also argues
that it does not have to show an actual commitment
from an air carrier in order to establish standing. (See
Dkt. # 73 at 17-19). In In re Old Carco, a Chapter 11
debtor and a new entity that assumed liabilities of
debtors and their debtor-affiliates brought an action

48a
for declaratory and injunctive relief against Colorado
and Kentucky state officials responsible for enforcing
state automobile dealer laws. In re Old Carco, 470 B.R.
at 688. The plaintiffs alleged that certain state statutes
violated and were preempted by the Supremacy Clause.
Id. The state argued that the plaintiffs lacked standing
because they had not yet suffered an injury. Id. at 697.
In finding that the plaintiffs established standing,
the Court noted that “[e]nforcement of the Kentucky
statute would cause New Chrysler to sustain an injury
that could be redressed by this decision.” In re Old
Carco LLC, 470 B.R. at 697. The Court quoted
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118
(2007), in which that Court held that “the Declaratory
Judgment Act permits a plaintiff to seek prospective
declaratory relief rather than face exposure to liability
or injury before seeking remedial relief.” Id.
The Court finds that this case is distinguishable
from In re Old Carco, In In re Old Carco. the Court was
able to precisely identify the likely injury. More
specifically, the Court stated that “New Chrysler will
either have to forego selling its products within ten
miles of a rejected dealer for ten years or will have to
contract with the dealers whose previous contracts
were rejected during the bankruptcy proceeding.” In re
Old Carco, 470 B.R. at 697. In this case, plaintiff
argues that the statute is preventing the Airport from
attracting new commercial service, but there is no
evidence in the record that any airline, including
Allegiant, has indicated that it would commit to

49a
bringing service to Tweed if the runway is lengthened.
(Dkt. # 59 at 14; trial transcript at 73, 77, 128-30).
In In re Old Carco, there was also a direct causal
relationship between the injury and the state statute,
and the court explicitly found that the injury could be
redressed by invalidating the statute. Id. at 697.
(“Enforcement of the Kentucky statute would cause
New Chrysler to sustain an injury that could be
redressed by this decision). In this case, plaintiff has
failed to show a direct causal relationship between the
length of the runway and the Airport’s inability to
attract new commercial service.3 (See trial transcript
at 128). Likewise, without a clear commitment from
any air carrier that it will bring service to the Airport
if the runway is lengthened, it is not clear that
plaintiff ’s alleged injury would be redressed in the
absence of Conn. Gen. Stat. § 15-120j(c). (See Exhibit
10). For these reasons, the Court finds that In Re Old
Carco. is distinguishable from the current case.
The Court finds the defendant’s arguments to be
persuasive. The parties stipulated that notwithstanding
marketing efforts, the Authority has not received a
commitment from any airline to provide service at the
Airport if the statutory restriction on the length of
Runway 2/20 is removed. (Dkt. # 59 at 14). The Court
finds that without an express commitment that a
3

Mr. DeCoster testified that he had not conducted any
independent market demand studies that analyzed other
potential destinations for commercial service from Tweed, or that
analyzed Tweed as a potential destination from other airports.
(Trial transcript at 128).

50a
carrier will bring service to the airport if the runway
length is increased, the plaintiff cannot show a causal
connection between the statute and the alleged injury.
Plaintiff next argues that the airport cannot
comply with federal grant requirements due to the
state statute’s restriction on the length of Runway
2/20. (Dkt. # 73 at 19). Plaintiff notes that whenever
Tweed accepts federal funds, it agrees to various grant
assurances which, among other things, require
compliance with a long list of federal statutes and
regulations directed to airport facilities and operations.
(Dkt. # 73 at 20). Non-compliance by an airport such as
Tweed can result in an enforcement action by the FAA.
(Dkt. # 73 at 20, See Dkt. # 59, Stip. # 36). The defendant
argues that “the Authority, not the state, has been the
party responsible for the Authority’s failure to comply
with federal grant assurances and related federal
statutes since the enactment of Conn. Gen. Stat. § 15120j(c) in 2009.” (Dkt. # 74 at 16).
Plaintiff notes that the “FAA has identified several
federal obligations and grant assurances that Tweed is
unable to comply with as a result of General Statutes
§ 15-120j(c).” (Dkt. # 73 at 20). In fact, the FAA has not
commented directly on Conn. Gen. Stat. § 15-120j(c),
but it has commented on a Memorandum of Agreement
(“MOA”) that was established among the City of New
Haven, the Town of East Haven, the Authority and
certain members of the Connecticut General Assembly.
(Dkt. # 59, Stip. # 60).

51a
The FAA noted its concern regarding the runway
length limitation in the MOA4, but it also noted its
concern regarding potential violations of the Airport
Noise and Capacity Act of 1990 (“ANCA”) and the AntiHead Tax Act. (Def. Ex. A). The defendant emphasizes
that this agreement was entered into voluntarily by
the Authority and that no evidence was presented at
trial that the Authority has taken any actions to
address any of the FAA’s concerns regarding federal
grant assurances or violations of the ANCA or the
Anti-Head Tax Act. (Dkt. # 74 at 20).
The FAA has also expressed concern with the
taxiways at the Airport. The parties stipulated in their
joint trial memorandum that the current locations and
dimensions of the taxiways are not in compliance with
federal regulations in terms of their distance to
Runway 2/20. (Dkt. # 59, Stip. # 39). The FAA has given
the Authority until May 6, 2021 to redesign and
reconstruct its taxiways, including realignment of
Taxiway A, to bring the Airport into compliance with
federal design standards. (Dkt. # 59, Stip. # 43). Plaintiff
suggests that the taxiways might be altered as a part
of the proposed runway extension project so that they
are in compliance with federal law. (Dkt. # 59, Stip. #
39). But the Authority had proposed a nonstandard
parallel taxiway as part of its operation safety
improvements. (Dkt. # 74 at 17; See also trial transcript
at 31).

4

The MOA limits Runway 2/20 to the existing paved runway
length of 5,600 linear feet. (Dkt. # 59, Stip. # 61).

52a
The defendant argues that it is “disingenuous for
the plaintiff to claim that the runway limitation
statute has prevented it from complying with federal
grant assurances . . . when the plaintiff itself has
proposed a nonstandard taxiway in contradiction of
the FAA’s requirement to create standard taxiways in
2012. (Dkt. # 74 at 18).
The Court finds that the plaintiff has failed to
provide evidence of a causal relationship between Conn.
Gen. Stat. § 15-120j(c) and the Authority’s alleged
inability to comply with federal grant requirements.
The evidence suggests, instead, that the Authority’s
failure to comply with federal grant requirements is
for the most part self-imposed.
Finally, plaintiff argues that the only commercial
aircraft currently servicing the Airport will soon be
retired, leaving Tweed with no commercial service.
(Dkt. # 73 at 22). Plaintiff cites to a report prepared by
John DeCoster, an expert witness who testified on
behalf of the plaintiff.5 (Pl. Ex. # 13). Mr DeCoster
indicates in his report that the Dash-8 is “nearing the
end of its useful life” at which point “a major overhaul
of the airport is required.” (Pl. Ex. # 13 at 3). However,
he opined that since the “economics for such an

5

The defendant objected to Mr. DeCoster’s testimony,
arguing it was based on insufficient and unreliable evidence.
(Trial transcript at 76-77). In the interest of caution and because
this was a bench trial, the Court overruled the objection and
allowed the testimony.

53a
overhaul [are] no longer supportable,” the aircraft will
be retired from service. (Pl. Ex. # 13 at 3).
According to Mr. DeCoster’s report, the “logical
aircraft that will replace the Dash 8 is the 50 seat
regional jet, either the Bombardier CJ200 or the
Embraer 145.” (Pl. Ex. # 13 at 3). However, according
to Mr. DeCoster, these aircraft are also reaching their
“cycle limits” and are being phased out. (Pl. Ex. 13).
According to Mr. DeCoster’s report, American, Delta
and United have all indicated that once their 50 seat
jets “reach their maximum cycles or if fuel increases
significantly, the aircraft will be retired because the
flights will no longer be profitable.” (Pl. Ex. # 13 at 3).
Mr. DeCoster also noted that the desired minimum
runway length for the 50 seat regional jets is 6,200
linear feet in order to avoid payload hits (according to
the manufacturer’s specifications, 5,600 linear feet is
the lowest allowable condition). (Pl. Ex. # 13 at 3).
According to Mr. DeCoster, once the 50 seat regional jet
is no longer available, the next size aircraft is the 70/76
regional jet, which likely requires a minimum runway
length of 6,220 to 6,600 linear feet. (Pl. Ex. # 13 at 4).
Thus, plaintiff argues that “there is a real and distinct
possibility that the Dash 8, Bombardier CJ200 and
Embraer 145 will be retired at or around the same
time, leaving Tweed with absolutely no commercial
service.” (Dkt. # 73 at 23).
The defendant argues in response that the
plaintiff has failed to show that the Dash 8 will be
phased out in the near future, that a replacement plane

54a
will need a longer runway, or that regularly schedule
commercial service at the airport is jeopardized and may
be terminated. (Dkt. # 74 at 7). The defendant notes
that on cross examination, Mr. DeCoster testified that
he does not know when the American Airlines Dash 8
will be retired.6 (Dkt. # 74 at 8, See trial transcript at
119). The defendant further notes that “Mr. DeCoster
agreed at trial that he ‘cannot conclude that regularly
scheduled commercial service is jeopardized at the
moment.’ ” (Dkt. # 74 at 9; trial transcript at 119-20).
The defendant argues that “the plaintiff ’s claim of
a ‘possible future injury’ arising from an unknown
phase out date of both the Dash 8 and the two regional
replacement jets does not satisfy Article III
requirements necessary to establish injury in fact
since such future possible events are not ‘threatened
injur[ies]’ that are ‘certainly impending.’ ” (Dkt. # 74 at
10). Relying upon the Second Circuit’s ruling in Shain
v. Ellison, 356 F.3d 211, 216 (2d Cir. 2004), the
defendant argues that plaintiff ’s argument is based
upon “an accumulation of inferences” and is “too
speculative and conjectural.”
As a result, the defendant urges the Court to
reject the “plaintiff ’s hypothetical scenario that if the
only type of aircraft currently providing service to the
6

On cross examination, Mr. DeCoster also testified that
American Airlines could service Tweed with either the
Bombardier CJ 200 or the Embraer 145 after the Dash 8 is retired
and nothing in his report indicates that the use of those two jets
would not be profitable for American Airlines. (Trial transcript at
112-14; 122-23).

55a
Airport will soon be phased out, and if there are no
replacement planes that can operate on the existing
runway, and if new planes will need a longer runway,
and if that development jeopardizes commercial service
at the Airport, the consequence will be that enforcement
of Conn. Gen. Stat. § 15-120j(c) may terminate all
commercial service ‘someday’ in the future.” (Dkt. # 74
at 11).
While the Court is quite sympathetic to plaintiff ’s
potential situation, the Court is not persuaded that
Tweed faces an imminent threat that the only
commercial aircraft currently servicing the airport will
be retired, thereby leaving Tweed with no commercial
service. Plaintiff ’s witness, Mr. DeCoster, testified on
cross-examination that American Airlines has been
servicing Tweed since 2009 with no interruptions, and
that American Airlines finds this service to be
profitable. (Trial transcript, p. 105, lines 18-23; p. 107,
lines 10-14). Mr. DeCoster also testified that he does
not know when the Dash 8 would be retired. (Trial
transcript at 118-19). On cross examination, Mr.
DeCoster testified that in publications that he has
“read from airlines, they are speculating, . . . , that by
the end of the decade, they will have reached their
cycle lives.”7

7

Mr. DeCoster’s report did not contain or attach any written
information from American Airlines or any other airlines
discussing when the Dash 8 will be retired. (Trial transcript at 68).
Additionally, Mr. DeCoster has not conducted any independent
analysis on the subject. (Trial transcript 69).

56a
Thus, plaintiff has failed to offer a definitive end
date, or even a definite time frame, for the useful life of
the Dash 8.8 (See Dkt. # 73 at 23; trial transcript at 6970). (Trial transcript at 114). Plaintiff also cannot
identify a definitive end date for the useful life of the
likely replacement jets.9 (See Dkt. # 73 at 23; trial
transcript at 69-70, 117-19). Plaintiff ’s argument that
“there is a real and distinct possibility that the Dash
8, Bombardier CJ200 and Embraer 145 will be retired
at or around the same time,” falls short without actual
evidence. “Abstract injury is not enough . . . [i]t must
be alleged that the plaintiff ‘has sustained or is
immediately in danger of sustaining some direct
injury’ as the result of the challenged statute or official
conduct.” O’Shea v. Littleton, 414 U.S. 488, 494 (1974).
For these reasons, the Court finds that the
Authority has failed to prove that it faces an imminent
threat of losing all commercial service.

8

During the trial, defense counsel asked Mr. DeCoster, “[s]o
isn’t it true that the facts that you have to offer this court on the
Dash 8 phaseout are that someday in the future the Dash 8 will
be phased out but you don’t know when, correct?” Mr. DeCoster
replied, “Correct.” Defense counsel then asked about the two
logical replacement jets, “[a]nd isn’t it true that your report does
not identify exactly when [the Bombardier CJ200 and the
Embraer 145] will reach the end of their useful lives?” Mr.
DeCoster replied, “Yes.” (Trial transcript at 69).
9
Mr. DeCoster’s report did not contain any written
information from any of the airlines indicating when the two
replacement jets will be retired from service and Mr. DeCoster
did not conduct any independent analysis on that subject. (Trial
transcript at 69-70).

57a
II. Preemption
Plaintiff argues that Conn. Gen. Stat. § 15-120j(c)
violates the Supremacy Clause of the United States
Constitution. (Dkt. # 75 at 10). Specifically, plaintiff
argues that the statute is preempted by three federal
statutes: the Federal Aviation Act (“FAAct”), the
Airline Deregulation Act (“ADA”), and the Airport and
Airways Improvement Act (“AAIA”). (Dkt. # 73 at 25).
The defendant argues, in response, that the runway
limitation in Conn. Gen. Stat. § 15-120j(c) does not
violate the FAAct, the ADA or the AAIA. (Dkt. # 74 at
24).
“It is a familiar and well-established principle that
the Supremacy Clause, U.S. Const., Art. VI, cl. 2,
invalidates state laws that ‘interfere with, or are
contrary to,’ federal law.” Hillsborough Cty., Fla. v.
Automated Med. Labs., Inc., 471 U.S. 707, 712 (1985)
(citations omitted). “Preemption can be either express
or implied.” Air Transp. Ass’n of Am., Inc. v. Cuomo, 520
F.3d 218, 220 (2d Cir. 2008).
“In general, three types of preemption exist: (1)
express preemption, where Congress has expressly
preempted local law; (2) field preemption, ‘where
Congress has legislated so comprehensively that
federal law occupies an entire field of regulation and
leaves no room for state law’; and (3) conflict
preemption, where local law conflicts with federal law
such that it is impossible for a party to comply with
both or the local law is an obstacle to the achievement
of federal objectives.” New York SMSA Ltd. P’ship v.

58a
Town of Clarkstown, 612 F.3d 97, 104 (2d Cir. 2010).
“The key to the preemption inquiry is the intent of
Congress.” Id.
A. The FAAct
Plaintiff does not argue in its post-trial brief that
Conn. Gen. Stat. § 15-120j(c) is directly preempted by
the FAA, and there is no evidence in the record to
support direct preemption. Plaintiff instead argues that
Conn. Gen. Stat. § 15-120j(c) is impliedly preempted by
the FAAct under a theory of field preemption. (Dkt.
# 73 at 26). Plaintiff contends that the “evidence at
trial establishes that runway length is indeed a
component part of the field of airline safety,” and is
therefore part of a field that is completely occupied by
the federal government. (Dkt. # 73 at 26).
The defendant argues that the plaintiff ’s “claim
that Conn. Gen. Stat. § 15-120j(c) attempts to regulate
a field occupied by the federal government, aviation
safety and service capacity is misplaced,” and that
“[n]o evidence has been presented showing that the
runway limitation statute interferes with the
Authority’s ability to comply with federal aviation
safety standards.” (Dkt. # 74 at 26). The defendant also
attempts to distinguish the current case from TweedNew Haven Airport Auth. v. Town of East Haven,
Conn., 582 F. Supp. 2d 261 (D. Conn. 2008) (Hall, J.)
(hereinafter “Tweed v. Town of East Haven.”), a case
that is integral to plaintiff ’s argument.

59a
In Tweed v. Town of East Haven, the plaintiff
brought an action against the Town of East Haven,
seeking a declaratory judgment that the Town’s
regulations, which interfered with the Airport’s
“runway project,” were preempted by federal law. The
purpose of the runway project was to put Tweed-New
Haven Airport in compliance with the FAA’s current
runway safety area (“RSA”) requirements. Id. at 270.
The district court found that “Congress intended
to occupy and regulate the field of airline safety,” and
that this power extends to “grounded planes and
airport runways.” Id. at 268. The court ruled that
“because the TSAs are being created for the purpose of
meeting the FAA safety standards and the Runway
Project is being done within Authority property, the court
finds that the East Haven defendants’ regulations, as
applied to the Runway project, are preempted by the
FAAct.” Id.
The Court agrees defendant’s argument that
Conn. Gen. Stat. § 15-120j(c) does not interfere with
plaintiff ’s ability to comply with federal aviation
safety standards. The Court also finds that the current
case is distinguishable from Tweed v. Town of East
Haven.
The “runway project” in Tweed v. Town of East
Haven was undertaken in response to an FAA
enforcement action for the purpose of complying with
FAA safety standards. In the current case, there is no
pending FAA enforcement action. (Dkt. 59, Stip. # 42).
While the airport is not in compliance with FAA

60a
standards due to non-standard taxi-way geometry,
there is no evidence that extending the runway is
necessary to fix this problem or for the Authority to
come into compliance with FAA safety guidelines. (Dkt.
# 59, Stip. ¶ 43).
Thus, plaintiff ’s argument that the “non-standard
separation between the taxi-way and the runway could
be brought into compliance as part of the proposed
runway extension project,” is unavailing. (Dkt. 59, Stip.
# 39). Plaintiff has failed to present evidence that the
runway length in this instance is a component part of
the field of airline safety.
Plaintiff also argues that Conn. Gen. Stat. § 15120j(c) is preempted by the FAAct under a theory of
conflict preemption. (Dkt. # 73 at 27). Plaintiff argues
that “conflict preemption does not just hinge entirely
on whether the state law makes it impossible to comply
with the federal law,” but it also arises when the state
law stands as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress. (Dkt. # 73 at 27, citing Hillsborough County,
471 U.S. at 713; see also California v. ARC Am. Corp.,
490 U.S. 93, 100-01 (1989)).
Plaintiff contends that Runway 2/20 “remains too
short for almost all commercial aircraft to operate
regularly scheduled service in a safe and commercially
reasonable manner.” (Dkt. # 73 at 27). Plaintiff also
argues that Conn. Gen. Stat. § 15-120j(c) prevents it
from complying with federal grant requirements. (Dkt.
# 73 at 27). In response, the defendant argues that

61a
there is no evidence showing that the statute has
directly or indirectly caused the plaintiff to fail to
comply with any federal safety regulations. (Dkt. # 74
at 25).
As noted above, “[c]onflict preemption arises when
“local law conflicts with federal law such that it is
impossible for a party to comply with both or the local
law is an obstacle to the achievement of federal
objectives.” New York SMSA Ltd. P’ship, 612 at 104.
There is no pending enforcement action by the FAA
against the Authority. (Dkt. # 59, Stip. ¶ 42). The
current locations and dimensions of the taxiways are
not in compliance with regulations in terms of their
distance from Runway 2/20, but this problem can be
fixed without extending the length of Runway 2/20.
(Dkt. 59, Stip. # 39). Thus, there is no evidence in the
record showing that it is impossible for the Authority
to comply with both Conn. Gen. Stat. § 15-120j(c) and
the FAAct.
There is also no evidence in the record that Conn.
Gen. Stat. § 15-120j(c) stands as an obstacle to the
achievement of federal objectives. Plaintiff argues that
the runway “remains too short for almost all
commercial aircraft to operate regularly scheduled
service in a safe and commercially reasonable manner.”
(Dkt. # 73 at 27). However, the airport is currently
served by American Airlines with a Dash 8 turboprop
aircraft that seats between 37 and 40 passengers. (Pl.
Ex. 13). According to a letter written by Mr. DeCoster,
who testified on behalf of the plaintiff, “[t]he current
runway length is sufficient to accommodate that

62a
aircraft in most weather conditions without a payload
hit.” (Pl. Ex. 13). American’s continued service shows
that it is possible to operate regularly scheduled
service in a safe and commercially reasonable manner.
(Trial transcript at 105-7, 122-23).
For the aforementioned reasons, the Court finds
that Conn. Gen. Stat. § 15-120j(c) is not preempted by
the FAAct.
B. The ADA
The Airline Deregulation Act “ADA” was enacted
in 1978 based on Congress’s determination that
“ ‘maximum reliance on competitive market forces’
would best further ‘efficiency, innovation, and low
prices’ as well as ‘variety [and] quality . . . of air
transportation services.’ ” Morales v. Trans World
Airlines, Inc., 504 U.S. 374, 378, 112 S. Ct. 2031, 2033,
119 L.Ed. 2d 157 (1992). The ADA includes an express
preemption provision that prohibits states from
enforcing any law “ ‘relating to rates, routes, or
services’ of any air carrier.” Morales, 504 U.S. at 37879. Under the ADA, “ ‘air carrier’ means a citizen of the
United States undertaking by any means, directly or
indirectly, to provide air transportation.” 49 U.S.C.A.
§ 40102(2) (West). Airport is defined separately as “a
landing area used regularly by aircraft for receiving or
discharging passengers or cargo. 49 U.S.C.A. § 40102(9)
(West).
Plaintiff argues that Conn. Gen. Stat. § 15-120j(c)
is expressly preempted by the ADA because the

63a
“restriction on the Length of Runway 2/20 is related to
‘a price, route or service of an air carrier.’ ” (Dkt. # 73
at 28). The defendant argues that the ADA does not
apply because the express preemption clause in the
ADA specifically applies to an “air carrier” as opposed
to an airport. (Dkt. # 74 at 34).10 Plaintiff contends that
a state law does not have to specifically target an air
carrier in order to be preempted by the ADA, as long
as it is related to the price, route or service of an air
carrier. (Dkt. # 73 at 28).
Based upon the plain language of the ADA, the
Court finds that the express preemption provision at
issue applies specifically to air carriers, as opposed to
airports, which are defined separately in the statute.
The Court further finds that the Authority lacks
standing to bring this claim on behalf of a third party.
“[A] party ‘generally must assert his own legal rights
and interests, and cannot rest his claim to relief on the
legal rights or interests of third parties.’ ” Kowalski v.
Tesmer, 543 U.S. 125, 129, (2004). Therefore, plaintiff
cannot assert legal rights on behalf of Allegiant, or any
other hypothetical air carrier who might bring service
to the Airport.
Even if the preemption provision applied in this
case, plaintiff still has not shown that Conn. Gen. Stat.
10

“It is worth emphasizing that it is the effect on the ‘price,
route or service’ of an air carrier—not an airport—that is
prohibited by the ADA.” Goodspeed Airport, LLC v. E. Haddam
Inland Wetlands & Watercourses Comm’n, 681 F. Supp. 2d 182,
207 (D. Conn. 2010) (Kravitz, J.), aff ’d, 634 F.3d 206 (2d Cir.
2011).

64a
§ 15-120j(c) relates to rates, routes or services. “State
enforcement actions having a connection with or
reference to airline ‘rates, routes, or services’ are preempted” under the ADA. Morales v. Trans World
Airlines, Inc., 504 U.S. 374, 384, 112 S. Ct. 2031, 2037,
119 L.Ed. 2d 157 (1992). However, the Court is hard
pressed to find any clear connection between Conn.
Gen. Stat. § 15-120j(c) and air carrier rates, routes or
services.
Plaintiff argues that the statute relates to the
route and service of an air carrier because it is
preventing Allegiant from bringing service to the
Airport and it is preventing the Authority from
attracting new service. (Dkt. # 73 at 30). This argument
is not supported by the evidentiary record. Allegiant
has not committed to bringing service to the Airport,
even if the runway is extended. (See P. Ex. # 10,
“Allegiant letter”). And, American Airlines continues to
operate the same service that it operated prior to the
passage of Conn. Gen. Stat. § 15-120j(c). (Trial transcript
at 119). There is no evidence in the record to suggest
that American Airlines would expand its service if the
runway were extended. Furthermore, the Court cannot
find preemption based upon hypothetical future
carriers who might want to bring service to Tweed at
some undisclosed future date.
For these reasons, the Court finds that the express
preemption provision in the ADA does not apply in this
case, and even if it did apply, the Court finds that Conn.
Gen. Stat. § 15-120j(c) is not preempted by the ADA.

65a
C. The AAIA
The Airport and Airway Improvement Act
(“AAIA”) “serves the purpose of providing federal
funding to airport construction projects to promote a
wide variety of policy goals.” City of Cleveland, Ohio v.
City of Brook Park, Ohio, 893 F. Supp. 742, 749 (N.D.
Ohio 1995). “The Act imposes no requirements, nor
does it authorize the promulgation of any regulations,
that govern airports generally or that govern projects
for which no federal funding is being sought.” Id. at
752.
Plaintiff argues that Conn. Gen. Stat. § 15-120j(c)
is impliedly preempted by the AAIA under theories of
field and conflict preemption. Plaintiff notes that the
“comprehensive statutory scheme of the AAIA
demonstrates the supremacy of federal interest in
commercial air service expansion, particularly with
regard to development of airport facilities. (Dkt. # 73
at 31). Plaintiff states that “the AAIA, in conjunction
with the FAAct and ADA, demonstrates the dominance
of the federal interest in aviation safety and airport
improvement projects and requires the FAA to develop
and maintain a national plan of integrated airport
systems.” (Dkt. # 73 at 31).
Plaintiff also argues that Conn. Gen. Stat. § 15120j(c) directly conflicts with the AAIA because it serves
as an impediment to the federal government’s and
Tweed’s objective of expanding service, to the
implementation of the Master Plan adopted by the
FAA that contemplates the expansion of Runway 2/20

66a
and to increasing compliance with federal safety
standards. (Dkt. # 73 at 31).
The defendant argues that the AAIA does not fully
occupy the field of aviation safety and service capacity.
(Dkt. # 74 at 38). Instead, “the AAIA provides a
mechanism through which the FAA is to determine
whether to provide federal funding to airport
development and improvement projects.” (Dkt. # 74,
quoting City of Cleveland, 893 F.Supp. at 752). The
defendant also argues that there is no actual conflict
between Conn. Gen. Stat. § 15-120j(c) and the AAIA.
This is because “the AAIA does not set regulatory
requirements for the construction of airport runways;
it only sets requirements for those wishing to secure
federal funding for that type of project.” (Dkt. # 74 at
36).
The Court does not find that Conn. Gen. Stat. § 15120j(c) is preempted by the AAIA under a theory of
field preemption. Plaintiff does not offer any case
law in support of its legal conclusion that the AAIA
occupies the field of aviation safety and airport
improvement projects. Unlike the FAAct, which “was
enacted to create a ‘uniform and exclusive system of
federal regulation’ in the field of air safety,” the AAIA
does not impose any requirements or authorize the
promulgation of federal regulations, unless funding is
being sought. See Air Transp. Ass’n of Am., Inc., 520
F.3d at 224.
Regarding the issue of conflict preemption, the
Court again finds that the AAIA does not impose

67a
affirmative obligations unless an Airport is seeking
federal funding. Plaintiff is not obligated to seek
federal funding. Thus, plaintiff has not demonstrated
that it is impossible to adhere with Conn. Gen. Stat.
§ 15-120j(c) and the AAIA.
For the reasons set forth above, the undersigned
finds that Conn. Gen. Stat. § 15-120j(c) is not
preempted by the AAIA.
CONCLUSION
For the reasons set forth herein, plaintiff ’s
declaratory judgment action is DENIED.
This is not a recommended ruling. The consent of
the parties allows this magistrate judge to direct the
entry of a judgment of the district court in accordance
with the Federal Rules of Civil Procedure. Appeals can
be made directly to the appropriate United States
court of appeals from this judgment. See 28 U.S.C.
§ 636(c)(3).
SO ORDERED at Hartford, Connecticut, this 30th
day of September, 2017.

68a
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
TWEED-NEW HAVEN
AIRPORT AUTHORITY,
Plaintiff,
v.
GEORGE JEPSEN, IN HIS
OFFICIAL CAPACITY AS
ATTORNEY GENERAL
FOR THE STATE OF
CONNECTICUT
Defendant.

:
:
:
:
:
:
:
:
:
:
:
:

CASE NO.
3:15cv01731 (RAR)

RULING ON DEFENDANT’S
MOTION TO DISMISS
(Filed Dec. 9, 2016)
Plaintiff, Tweed-New Haven Airport Authority,
brings this action seeking declaratory relief pursuant
to the Declaratory Judgment Act, 28 U.S.C. § 2201 et
seq. (Dkt. # 1). Defendant, State of Connecticut Attorney
General George Jepsen, in his official capacity, moves
to dismiss the action for lack of subject matter
jurisdiction, pursuant to Rule 12(b)(1) of the Federal
Rules of Civil Procedure, and failure to state a
claim upon which relief can be granted, pursuant to
Rule 12(b)(6). (Dkt. # 39). For the following reasons,
defendant’s motion to dismiss is denied.

69a
FACTUAL BACKGROUND
The following facts are taken from plaintiff ’s
Complaint for Declaratory Relief (“complaint”), and
are presumed true for the purposes of the pending
motion. Plaintiff, Tweed-New Haven Airport Authority
(“Tweed”) is a public instrumentality and political
subdivision of the State of Connecticut, pursuant to
Connecticut General Statutes § 15-120i, et seq. (Dkt.
# 1, at ¶ 5). The City of New Haven owns the Airport
property and leases it to the Airport Authority. (Id., at
¶ 12). The Airport is situated in both East Haven and
New Haven. (Id., at ¶ 13). The Airport’s main runway
runs north/south and is referred to as “Runway 2/20.”
(Id., at ¶ 13). The runway is approximately 5,600 linear
feet, with Runway 2 at the South end and Runway 20
at the North end. (Id., at ¶¶ 13, 19).
The Airport is among the public use airports
included in the National Plan of Integrated Airport
Systems. (Id., at ¶ 14). The Airport is classified by the
Federal Aviation Administration (“FAA”) as a primary
commercial service airport and it holds a Part 139
certification to provide regularly scheduled passenger
air service. (Id., at ¶ 14). The Airport Authority has
accepted tens of millions of dollars in grants from the
FAA for construction and maintenance of facilities, the
acceptance of which requires compliance with a long
list of federal statutes and regulations. (Id., at ¶¶ 15,
16).
The Airport consists of numerous structures,
including an airport terminal, an administration

70a
building, hangars and offices leased to a fixed base
operator, an air rescue and fire safety facility, a control
tower, and two runways with related taxiways. (Id., at
¶ 17). All of these structures are part of the Airport
Layout Plan (“ALP”), and any modifications of the ALP
require the approval of the FAA. (Id., at ¶ 18). The FAA
requires that each airport with a 139 certification
develop a Master Plan. (Id., at ¶ 20). Tweed has a
Master Plan for the Airport, which identifies future
improvements for the Airport, and which was approved
by the State of Connecticut and by the FAA in 2002.
(Id., at ¶¶ 20, 21).
In 2009, the State of Connecticut, through Public
Act 09-7, amended Connecticut General Statutes
§ 15-120j by adding subsection (c), which provides:
“[n]otwithstanding the provisions of subsections (a)
and (b) of this section, Runway 2/20 of the airport shall
not exceed the existing paved runway length of five
thousand six hundred linear feet.” (Id., at ¶ 22). The
current length of Runway 2/20, at 5,600 linear square
feet, “remains too short for almost all commercial
aircraft to operate regularly scheduled service in a safe
and commercially reasonable manner.” (Id., at ¶ 24).
Currently scheduled commercial service at the
Airport is provided by a single type of aircraft, and the
Authority understands that this type of aircraft will
be phased out in the near future and replaced with an
aircraft that will require a longer runway than the
current Runway 2/20. (Id., at ¶ 26). Thus, “regularly
scheduled service at the airport is not only jeopardized
at the moment but also may be terminated in the

71a
future if the length of Runway 2/20 is not extended.”
(Id., at ¶ 26).
Numerous airlines have notified the plaintiff that
they would like to bring regularly scheduled service to
the Airport, but that they cannot do so until Runway
2/20 is lengthened. (Id., at ¶ 28). The Airport has not
attracted any new commercial carriers since 2009 and
service remains low. (Id., at ¶ 29). The length of Runway
2/20 is a “key factor” in both of these circumstances. Id.
The Authority has started planning a runway
extension project to increase the functional length of
Runway 2/20, including using private funds to hire a
consulting engineering firm to conduct a preliminary
Environmental Assessment. (Id., at ¶ 32). However,
the FAA has refused to provide funding for the project
or to review the alternative layouts presented in the
preliminary Environmental Assessment while there is
a state law that limits the length of Runway 2/20. (Id.,
at ¶ 33).
Plaintiff alleges that “[b]y restricting the length
of Runway 2/20, Connecticut General Statutes §15120j(c) attempts to regulate aviation safety and the
service capacity at the Airport, a field occupied by the
United States Government.” (Id., at ¶ 57). Plaintiff
adds that “[a]ny enforcement of Connecticut General
Statutes §15-120j(c) is an illegal usurpation of federal
jurisdiction in violation of the Supremacy Clause, Art.
VI, cl. 2, of the United States Constitution. (Id., at
¶ 62).

72a
LEGAL STANDARD
A Rule 12(b)(1) motion seeks dismissal for lack
of subject matter jurisdiction. Fed.R.Civ.P. 12(b)(1).
“When considering a motion to dismiss for lack of
subject matter jurisdiction . . . , a court must accept as
true all material factual allegations in the complaint.
Shipping Fin. Servs. Corp v. Drakos, 140 F.3d 129, 131
(2d Cir. 1998). However, “[t]he burden of proving
jurisdiction is on the party asserting it.” Malik v.
Meissner, 82 F.3d 560, 562 (2d Cir. 1996).
Specifically, “[t]he party asserting subject matter
jurisdiction has the burden of proving, by a
preponderance of the evidence, that the court has
subject matter jurisdiction.” Augienello v. F.D.I.C., 310
F. Supp. 2d 582, 587-88 (S.D.N.Y. 2004). On a Rule
12(b)(1) motion, “the court may resolve disputed
jurisdictional factual issues by reference to evidence
outside the pleadings.” Id. at 588.
A Rule 12(b)(6) motion seeks dismissal for failure
to state a claim upon which relief can be granted.
Fed.R.Civ.P. 12(b)(6). “When considering a Rule 12(b)(6)
motion to dismiss, the court accepts as true all factual
allegations in the complaint and draws inferences
from these allegations in the light most favorable to
the plaintiff.” Kinney v. Connecticut, 622 F. Supp. 2d 1,
5 (D. Conn. 2009) (citations omitted). “Dismissal is
warranted only if, under any set of facts that the
plaintiff can prove consistent with the allegations, it is
clear that no relief can be granted.” Id.

73a
DISCUSSION
A. Article III Standing
The defendant argues in its reply brief that the
plaintiff fails to satisfy traditional Article III standing
requirements because it fails to allege a nonhypothetical injury. (Dkt. # 45 at 4-6).
Article III, § 2 of the United States Constitution
restricts federal courts to deciding “ ‘Cases’ and
‘Controversies.’ ” Lujan v. Defs. of Wildlife, 504 U.S. 555,
559 (1992). The “case-or-controversy requirement is
satisfied only where a plaintiff has standing.” Sprint
Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
273 (2008). “Three elements comprise the ‘irreducible
constitutional minimum’ of standing: (1) the plaintiff
must have suffered an injury-in-fact—an invasion of a
legally protected interest that is (a) concrete and
particularized, and (b) actual or imminent, not
conjectural or hypothetical; (2) there must be a causal
connection between the injury and the challenged
conduct; and (3) it must be likely, as opposed to merely
speculative, that the injury will be redressed by a
favorable decision.” All. for Open Soc’y Int’l, Inc. v. U.S.
Agency for Int’l Dev., 651 F.3d 218, 228 (2d Cir. 2011),
aff ’d sub nom. Agency for Int’l Dev. v. All. for Open
Soc’y Int’l, Inc., 133 S. Ct. 2321, 186 L. Ed. 2d 398
(2013).
“The party invoking federal jurisdiction bears the
burden of establishing these elements.” Lujan, 504 U.S.
at 561. However, “[a]t the pleading stage, general
factual allegations of injury resulting from the

74a
defendant’s conduct may suffice, for on a motion to
dismiss we ‘presum[e] that general allegations embrace
those specific facts that are necessary to support the
claim.’ ” Id.
In arguing that the plaintiff fails to satisfy the
elements of Article III standing, the defendant focuses
specifically on the injury in fact requirement. See Dkt.
# 45 at 4-5. In support of its argument, the defendant
cites Benjamin v. Malcolm, 803 F.2d 46 (2d Cir. 1986),
in which detainees claimed that overcrowded prison
conditions in a detention facility operated by the City
of New York violated their constitutional rights. The
Court found that the City had standing because it
faced a “direct injury.” Id. at 54. The Court noted that
the City would face contempt sanctions for
noncompliance with an existing court order, the City
also would be forced to spend millions of dollars for
additional prison space, and faced the threat of a major
riot at the detention facility due to the overcrowded
conditions. Id.
The defendant also cites Rogers v. Brockette, 588
F.2d 1057, 1059 (5th Cir. 1979) and Branson Sch. Dist.
RE-82 v. Romer, 161 F.3d 619 (10th Cir. 1998), in
support of the proposition that an injury in fact cannot
be hypothetical. In Rogers, 588 F.2d at 1057, a school
district brought an action against the state and others
challenging the constitutionality of a state statute
which required certain school districts to participate
in subsidized breakfast program. In determining
whether the plaintiffs satisfied Article III standing,
the Fifth Circuit stated that a federal court may not

75a
resolve ‘hypothetical or contingent questions.’ ” Id. at
1063.
In Branson, 161 F.3d at 630, the Tenth Circuit held
that three Colorado school districts had standing to
challenge an amendment to the Colorado Constitution
which altered the terms of the trust in which Colorado
places school land for the benefit of public schools.
Plaintiff alleged that the revisions injected a series of
conflicting interests into the management of the school
lands trust. The court held that the school districts had
alleged a “sufficient actual and particularized injury to
their legal interests.” Id. at 631.
The Court finds, contrary to the defendant’s
argument, that Tweed has demonstrated a direct
injury that is both actual and imminent. During oral
argument, the plaintiff asserted that it had a judicially
cognizable injury and cited a variety of examples,
including chronically low service levels, specific lost
business opportunities, and an inability to comply with
federal grant requirements. (See also Dkt. # 1, ¶¶ 2831). Thus, the Court finds that the plaintiff has alleged
a concrete and direct injury, including the current and
future loss of business and an inability to comply with
federal grant requirements. The plaintiff has also
shown that this injury is both actual and imminent,
because the plaintiff is already experiencing its effects.
As a result, the Court finds that the plaintiff has
satisfied its burden of establishing Article III standing.

76a
B. Eleventh Amendment Immunity
The defendant argues that the Court lacks
subject matter jurisdiction over this lawsuit under the
Eleventh Amendment of the United States Constitution
and the principles of sovereign immunity. In this
respect, the defendant argues that the plaintiff ’s claim
does not fall within one of the exceptions to sovereign
immunity. (Dkt. # 40 at 6-13). The plaintiff responds
that it’s claim falls under the Ex parte Young exception
to the Eleventh Amendment. (Dkt # 44 at 4-10).
The principle of sovereign immunity is a
constitutional limitation on the federal judicial power
established in Art. III of the Constitution. Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89 (1984).
Under the Eleventh Amendment, a state is immune
from suits in federal court brought by its own citizens,
and such immunity extends to officers acting on behalf
of the state, and to state agencies. See Deadwiley v.
New York State Office of Children & Family Servs., 97
F. Supp. 3d 110, 115 (E.D.N.Y. 2015). There are only three
exceptions to this rule: (1) a state may waive its Eleventh
Amendment defense; (2) Congress may abrogate the
sovereign immunity of the states by acting pursuant to
a grant of Constitutional authority; or (3) under the
doctrine of Ex Parte Young, 209 U.S. 123 (1908), the
Eleventh Amendment does not bar a suit against a
state official when the suit seeks relief that is properly
characterized as prospective. Deadwiley, 97 F. Supp.
3d at 115. “A plaintiff may use Ex Parte Young to seek
injunctive or declaratory relief, but the relief must
address an ongoing or threatened violation of federal

77a
law and be prospective only.” Goodspeed Airport, LLC
v. E. Haddam Inland Wetlands & Watercourses
Comm’n, 632 F. Supp. 2d 185, 187 (D. Conn. 2009)
(citations omitted); see also Friends of the East Hampton
Airport, Inc. v. Town of East Hampton, 841 F.3d 133,
144 (2d Cir. 2016).
The doctrine of Ex Parte Young “ensures that state
officials do not employ the Eleventh Amendment as a
means of avoiding compliance with federal law” and it
is “regarded as carving out a necessary exception to
Eleventh Amendment immunity.” Puerto Rico Aqueduct
& Sewer Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139,
146 (1993). Thus, “[r]ather than defining the nature of
Eleventh Amendment immunity, Young and its
progeny render the Amendment wholly inapplicable to
a certain class of suits.” Id. In determining whether
plaintiff ’s claim falls under the Ex parte Young exception,
the Court “need only conduct a ‘straightforward inquiry
into whether [the] complaint alleges an ongoing
violation of federal law and seeks relief properly
characterized as prospective.’ ” Verizon Maryland, Inc.
v. Pub. Serv. Comm’n of Maryland, 535 U.S. 635, 645
(2002).1

1

The Court does not address the defendant’s arguments
regarding whether the State waived its Eleventh Amendment
immunity or whether Congress abrogated the sovereign
immunity of the state by acting pursuant to a grant of
Constitutional authority, because the plaintiff makes no such
claims. The plaintiff argues solely that its claim falls under the
Ex parte Young exception to sovereign immunity.

78a
Plaintiff asserts that its claim “fits squarely
within the Ex Parte Young exception,” because it
alleges that Connecticut General Statutes § 15-120j(c)
violates the Supremacy Clause of the United States
Constitution by impermissibly regulating areas within
the exclusive jurisdiction of the federal government.
(Dkt. # 44 at 6). Plaintiff also asserts that it does not
seek money damages or any other type of retroactive
relief, but instead seeks prospective relief. (Dkt. # 44 at
7).
Citing Goodspeed, 632 F. Supp. 2d at 187 (D. Conn.
2009), the defendant argues that plaintiff ’s claim does
not address an ongoing or threatened violation of
federal law. More specifically, the defendant argues
that Tweed has not alleged that the state has
threatened or is about to commence an enforcement
action against it. (Dkt. # 45 at 3).
In Goodspeed, the plaintiff airport had inland
wetlands on its property. The plaintiff wanted to
remove or cut down trees that were within 75 feet of
the wetlands because it believed that the trees were
obstructions to navigable airspace as defined by
federal regulations promulgated under the Federal
Aviation Act. The plaintiff had the option of requesting
a permit from the East Haddam Inland Wetlands and
Watercourses Commission (“IWWC”) but the plaintiff
did not want to risk a potential adverse decision by
submitting to that process. Therefore, the plaintiff
brought an action against the IWWC and the
Commissioner of the Connecticut Department of
Environmental Protection for a declaration that the

79a
Connecticut Inland Wetlands and Watercourses Act
(“IWWA”) and the Connecticut Environmental
Protection Act (“CEPA”) were preempted by federal
aviation law. The district court granted the
Commissioner’s motion to dismiss on the basis of the
Eleventh Amendment, because the plaintiff “failed to
allege that the Commissioner [was] involved in an
ongoing violation of federal law or [had] threatened an
enforcement action. . . .” Id. at 188.
Specifically, the district court in Goodspeed
dismissed the case as to the Commissioner because the
Commissioner explicitly stated that she had no plans
to bring suit: “Unlike the IWWC, which has
represented to the Court that it would take action
against Goodspeed if it proceeded to cut or remove
trees in or near the inland wetlands without a permit
. . . the Commissioner has threatened no such
action. . . .” Id. at 188. Indeed, as the court noted, the
Commissioner had consistently maintained that it
would evaluate the plaintiff ’s actions and determine
whether an enforcement action was even appropriate
after the plaintiff trimmed or cut down the trees, based
on the extent of the trimming and the location of the
trees. The court further noted that the plaintiff had
previously trimmed trees on its property without the
Commissioner taking any action. Id.
The Court finds that Goodspeed is distinguishable
from the present case. The defendant in the present
case is more akin to the IWCC, which was not
dismissed on Eleventh Amendment grounds, than it is
to the Commissioner in Goodspeed, who was dismissed.

80a
The defendant in the current case, like the IWCC, has
at least implied that it will bring suit if Tweed violates
Connecticut General Statutes § 15-120j.
The defendant has given no indication that it does
not intend to bring suit. Despite the fact that this case
has been pending since November of 2015, when the
defendant was asked during oral argument if it would
bring suit if the plaintiff violated Connecticut General
Statutes § 15-120j, the defendant responded that it did
not know. Connecticut General Statutes § 15-120j was
amended to specifically restrict the runway length of
Airport 2/20. (Dkt. # 1 at 22). It seems counterintuitive
that the legislature would make such a specific and
exacting statutory change if the state did not intend to
enforce it. Therefore, the Court disagrees that plaintiff ’s
allegations “are as conjectural as those alleged in
Goodspeed.” (Dkt. # 45 at 3).
Additionally, the defendant argues that the
plaintiff fails to allege a “substantial and nonfrivolous”
violation of federal law. (Dkt. # 45 at 2). The plaintiff
alleges that Connecticut General Statutes is preempted by the Federal Aviation Act (“FAAct”), the
Airline Deregulation Act (“ADA”), and the Airline and
Airways Improvement Act (“AAIA”). (Dkt. # 44 at 2).
The Court finds, as discussed in greater detail in
Section D of the Court’s decision, that Connecticut
General Statutes § 15-120j is at least impliedly
preempted by the FAAct, because Congress intended
to fully occupy the field of airline safety. (See Dkt. # 1
at 8). Therefore, the plaintiff ’s alleged violation of
federal law is not frivolous.

81a
Thus, the Court finds that the plaintiff satisfies
the requirements of the Ex Parte Young doctrine by
alleging an ongoing or threatened violation of federal
law and relief that is properly characterized as
prospective.
C. Political Subdivision
Defendant argues that the plaintiff, as a political
subdivision of the state, lacks standing to sue the state.
(Dkt. # 40 at 13). In response, plaintiff argues that
despite its status as a political subdivision, “[t]he
prohibition on a political subdivision’s ability to sue
the state does not apply to Supremacy Clause
challenges which seek to vindicate the “collective” or
“structural” protections afforded by the Supremacy
Clause. (Dkt. 44 at 10).
The defendant cites a variety of cases in support
of the proposition that a political subdivision of the
state lacks standing to sue that state. (Dkt. # 40 at 1316). In City of Trenton v. New Jersey, 262 U.S. 182, 192
(1923), the Court found that political subdivisions
constituted mere creatures of the state, and held that
the city could not invoke the Fourteenth Amendment
Due Process Clause to prevent New Jersey from
enforcing a state law which imposed licensing fees for
diverting water from the Delaware River. In Williams
v. Mayor, 289 U.S. 36, 38-40 (1933), the Court held that
two cities could not invoke the Fourteenth Amendment
Equal Protection Clause to prevent Maryland from
exempting a railroad from all local taxes.

82a
The defendant suggests that the Second Circuit
has “adopted a per se rule that political subdivisions
lack standing to sue their creator states,” citing Aguayo
v. Richardson, 473 F.2d 1090 (2d Cir. 1973), in which
the Second Circuit held that the city lacked standing
to assert constitutional claims related to individual
liberties. (Dkt. # 40 at 14). The defendant also
cites New York v. Richardson, 473 F.2d 923 (2d Cir.
1973), in which the Second Circuit held that political
subdivisions could not challenge a state statute under
the Fourteenth Amendment. Finally, the defendant
cites Burbank-Glendale-Pasadena Airport Auth. v.
City of Burbank, 136 F.3d 1360 (9th Cir. 1998), in
which the Ninth Circuit held that a political
subdivision lacked standing to sue its parent state
based on a Supremacy Clause claim.
The plaintiff attempts to distinguish all of these
cases by arguing that these cases only address a
political subdivision’s ability to seek redress through
the Contract Clause and the Fourteenth Amendment,
and that they say nothing about plaintiff ’s standing to
bring a claim under the Supremacy Clause. The
plaintiff asserts that the Second Circuit has not
established a per se rule that political subdivisions lack
standing to sue a state, but that the Second Circuit has
merely “reached the unremarkable conclusion that a
political subdivision lacks standing to bring a
Fourteenth Amendment claim against the state.” (Dkt.
# 44 at 13). The plaintiff states that the Supreme Court
has never held that a political subdivision lacks
standing to bring a Supremacy Clause claim against

83a
the state in reference to an unconstitutional state
statute. (Dkt. # 44 at 11).
The plaintiff notes that the Fifth, Tenth and
Eleventh Circuits allow political subdivisions to
maintain Supremacy clause claims against their parent
states. (Dkt. # 44 at 14). The plaintiff argues that the
Ninth Circuit’s treatment of this issue is the “outlier
not the rule,” in that the Ninth Circuit is the only
Circuit to bar Supremacy Clause challenges. (Dkt. # 44
at 18).
During oral argument, both parties conceded that
there is no case directly on point in the Second Circuit.
Nonetheless, the Court is persuaded by the plaintiff ’s
arguments. Since the defendant fails to cite any
Second Circuit cases supporting the premise that a
political subdivision lacks standing to sue its parent
state based upon a Supremacy Clause claim, and the
Supreme Court has not ruled directly on the issue and
has certainly not adopted a per se rule on the issue, the
Court is not convinced that the plaintiff lacks standing
to sue the state based upon its status as a political
subdivision.2
D. Preemption
Finally, defendant claims that plaintiff has failed
to state a claim upon which relief can be granted
2

See Josh Bendor, Municipal Constitutional Rights: A New
Approach, 31 Yale L. & Pol’y Rev. 389 (2013), suggesting that the
Supremacy Clause properly constrains state power over
municipalities.

84a
pursuant to Rule 12(b)(6) of the Federal Rules of Civil
Procedure because Connecticut General Statutes § 15120j(c) is not preempted by FAAct, the ADA, or the
AAIA. (Dkt. # 40 at 16). Plaintiff responds that it has
adequately pled that the Statute is preempted by one
or more of the three federal statutes. (Dkt. # 44 at 20).
During oral argument the parties conceded that if the
Court finds that §15-120j(c) is preempted by any one of
the three federal statutes, the defendant’s motion to
dismiss should be denied.
“It is a familiar and well-established principle
that the Supremacy Clause, U.S. Const., Art. VI, cl. 2,
invalidates state laws that ‘interfere with, or are
contrary to,’ federal law.” Hillsborough Cty., Fla. v.
Automated Med. Labs., Inc., 471 U.S. 707, 712 (1985)
(citations omitted). “Federal preemption of state law
can be express or implied.” Goodspeed Airport LLC v.
E. Haddam Inland Wetlands & Watercourses Comm’n,
634 F.3d 206, 209 (2d Cir. 2011) (citations omitted).
“In general, three types of preemption exist: (1)
express preemption, where Congress has expressly
preempted local law; (2) field preemption, ‘where
Congress has legislated so comprehensively that federal
law occupies an entire field of regulation and leaves no
room for state law’; and (3) conflict preemption, where
local law conflicts with federal law such that it is
impossible for a party to comply with both or the local
law is an obstacle to the achievement of federal
objectives.” New York SMSA Ltd. P’ship v. Town of
Clarkstown, 612 F.3d 97, 104 (2d Cir. 2010). “The key

85a
to the preemption inquiry is the intent of Congress.”
Id.
The plaintiff alleges that §15-120j(c) is impliedly
preempted by the FAAct because the FAAct regulates
the entire field of airline safety and also because §15120j(c) impedes the FAAct’s objectives. (Dkt. # 44 at
21). Thus the plaintiff alleges field preemption and
conflict preemption, both of which are types of implied
preemption. (Dkt. # 44 at 26).3
Plaintiff argues that Congress occupies and
regulates the entire field of airline safety, citing to a
recent case in which it made similar allegations
against the Town of East Haven. In Tweed-New Haven
Airport Auth. v. Town of East Haven, Conn., 582
F. Supp. 2d 261 (D. Conn. 2008), Tweed-New Haven
Airport Authority brought an action against the Town
of East Haven, seeking a declaratory judgment that
the Town’s regulations, which interfered with the
Airport’s “runway project,” were preempted by federal
law.
The district court found that “Congress intended
to occupy and regulate the field of airline safety.” Id.
The Court held that the FAAct impliedly preempted
the East Haven defendants’ regulations because
“Congress intended to regulate, i.e., to fully occupy the
field of airline safety within which field the Runway

3

The plaintiff does not argue that the FAAct expressly
preempts §15-120j(c), so the Court will limit its discussion to
implied preemption.

86a
Project lies.” Id. at 267. In reaching its conclusion, the
Court quoted relevant parts of the FAAct:
Under the FAAct, “the United States has
asserted that it possesses and exercises
‘complete and exclusive national sovereignty
in the airspace of the United States.’ ” United
States v. City of New Haven, 447 F.2d 972, 973
(2d Cir.1971) (quoting the FAAct, 49 U.S.C.
§ 1508(a), as amended 49 U.S.C. § 40103(a)).
The FAAct defines navigable airspace as
“including airspace needed to ensure safety in
the takeoff and landing of aircraft.” 49 U.S.C.
40102(32); see also City of New Haven, 447
F.2d at 973. “This power extends to grounded
planes and airport runways.” Id. (citing 14
C.F.R. §§ 91.123 and 139.329). Thus, by the
passage of the FAAct, Congress intended to
occupy the entire field of airline safety,
including runways.
Id. at 268 (citations omitted). The court’s findings in
Tweed New Haven Airport Authority v. Town of East
Haven provide strong support for plaintiff ’s argument
that the FAAct impliedly preempts Connecticut
General Statutes § 15-120j(c). Section 15-120j(c)
attempts to regulate runway length, which is a
component part of the field of airline safety, and is
therefore part of a field completely occupied by the
federal government.
The plaintiff also alleges that Connecticut General
Statutes § 15-120j(c) is in actual conflict with the
FAAct. (Dkt. # 44 at 26). The defendant argues that the
plaintiff “alleges insufficient facts from which the

87a
Court can infer that the impossibility of compliance,
and therefore conflict preemption, exists in regard to
the FAAct.” (Dkt. # 40 at 27). The Court agrees. The
plaintiff fails to provide any specific examples of a
direct conflict between a federal law and a state law.4
The Court finds, considering the facts in the light
most favorable to the plaintiff, that plaintiff ’s
allegations give rise to the inference that Connecticut
General Statutes § 15-120j(c) is impliedly preempted
by the FAAct under a theory of field preemption.
Accordingly, the Court need not address whether § 15120j(c) is preempted by the ADA or the AAIA.
CONCLUSION
For the reasons set forth herein, defendant’s
motion to dismiss is DENIED.
SO ORDERED at Hartford, Connecticut, this 9th
day of December, 2016.
/s/
Robert A. Richardson
United States Magistrate Judge

4
When asked during oral argument to provide specific
examples of a direct conflict between Connecticut General
Statutes § 15-120j(c) and a federal law, the plaintiff did not
provide a direct answer.

88a
C.G.S.A. § 15-120g. Short title:
Tweed-New Haven Airport Authority Act
Sections 15-120g to 15-120o, inclusive, shall be known
and may be cited as the “Tweed-New Haven Airport
Authority Act”.

C.G.S.A. § 15-120h. Definitions
As used in sections 15-120g to 15-120o, inclusive, the
following terms shall have the following meanings:
(1) “Authority” means the Tweed-New Haven Airport
Authority as created under section 15-120i;
(2) “Procedure” means each statement, by the
authority, of general applicability, without regard to
its designation, that implements or prescribes law or
policy or describes the organization or procedure of the
authority. The term includes the amendment or repeal
of a prior regulation, but does not include, unless
otherwise provided by any provision of the general
statutes, (A) statements concerning only the internal
management of the authority and not affecting
procedures available to the public and (B) intraauthority memoranda;
(3) “Proposed procedure” means a proposal by the
authority under the provisions of section 15-120k for a
new procedure or for a change in, addition to or repeal
of an existing procedure.

89a
C.G.S.A. § 15-120i. Tweed-New Haven
Airport Authority. Board of directors
(a) There is created a body politic and corporate to be
known as the “Tweed-New Haven Airport Authority”.
Said authority shall be a public instrumentality and
political subdivision of this state and the exercise by
the authority of the powers conferred by sections 15120g to 15-120o, inclusive, shall be deemed and held
to be the performance of an essential public and
governmental function. The Tweed-New Haven Airport
Authority shall not be construed to be a department,
institution or agency of the state.
(b) The authority shall be governed by a board of
directors consisting of fifteen members, each member
serving not more than two consecutive four-year terms.
The terms of the members shall be staggered so that
not more than four members’ terms shall expire at the
same time. Eight members of the board shall be
appointed by the mayor of New Haven and five
members shall be appointed by the mayor of East
Haven, at least six of whom shall be residents of New
Haven or East Haven. Two members of the board shall
be appointed by the South Central Regional Council of
Governments, each of whom shall be a resident of any
of the following towns or cities: Bethany, Branford,
Guilford, Hamden, Madison, Milford, North Branford,
North Haven, Orange, Wallingford, West Haven or
Woodbridge. The board of directors shall elect a
chairperson from among its members and shall
annually elect one of its members as vice-chairperson
and shall elect other members as officers, and

90a
establish bylaws as necessary for the operation of the
authority. Members of the board of directors shall
receive no compensation for the performance of their
duties. No member of the board shall have any
financial interest in Tweed-New Haven Airport or any
of its tenants or concessions.
(c) The thirteen members of the board of directors
appointed by the mayors of New Haven and East
Haven shall be special directors vested with additional
powers set forth in the bylaws of the Tweed-New
Haven Airport Authority.
(d) The powers of the authority shall be vested in and
exercised by the board. Eight members of the board
shall constitute a quorum and the affirmative vote of a
majority of the members present at a meeting of the
board shall be sufficient for any action taken by the
board. No vacancy in the membership of the board
shall impair the right of a quorum to exercise all the
rights and perform all the duties of the board. Any
action taken by the board may be authorized by
resolution at any regular or special meeting and shall
take effect immediately unless otherwise provided in
the resolution. Notice of any meeting, whether special
or regular, shall be given orally, not less than fortyeight hours prior to the meeting. The board may
delegate to three or more of its members, or its officers,
agents and employees, such board powers and duties
as it may deem proper.
(e) The authority shall have perpetual succession
and shall adopt procedures for the conduct of its affairs

91a
in accordance with section 15-120k. Such succession
shall continue as long as the authority shall have
obligations outstanding and until the existence of the
authority is terminated by law at which time the rights
and properties of the authority shall pass to and be
vested in the city of New Haven.

C.G.S.A. § 15-120j. Purposes and powers.
Airport runway
Effective: October 5, 2009
(a) The authority shall maintain and improve
Tweed-New Haven Airport as an important economic
development asset for the south central Connecticut
region which is comprised of the towns and cities of
Bethany, Branford, East Haven, Guilford, Hamden,
Madison, Milford, New Haven, North Branford, North
Haven, Orange, Wallingford, West Haven and
Woodbridge. The authority shall have the following
powers and duties and may exercise such powers in its
own name: (1) To manage, maintain, supervise and
operate Tweed-New Haven Airport; (2) do all things
necessary to maintain working relationships with the
state, municipalities and persons, and conduct the
business of a regional airport, in accordance with
applicable statutes and regulations; (3) to charge
reasonable fees for the services it performs and modify,
reduce or increase such fees, provided fees shall apply
uniformly to all airport users; (4) to enter into
contracts, leases and agreements for goods and
equipment and for services with airlines, concessions,

92a
counsel, engineers, architects, private consultants
and advisors; (5) to contract for the construction,
reconstruction, enlargement or alteration of airport
projects with private persons and firms in accordance
with such terms and conditions as the authority
shall determine; (6) to make plans and studies in
conjunction with the Federal Aviation Administration
or other state or federal agencies; (7) to apply for and
receive grant funds for airport purposes; (8) to plan
and enter into contracts with municipalities, the state,
businesses and other entities to finance the operations
and debt of the airport, including compensation to the
host municipalities of New Haven and East Haven
for the use of the land occupied by the airport; (9)
to borrow funds for airport purposes for such
consideration and upon such terms as the authority
may determine to be reasonable; (10) to employ a staff
necessary to carry out its functions and purposes and
fix the duties, compensation and benefits of such staff;
(11) to issue and sell bonds and to use the proceeds of
such bonds for capital improvements to the airport;
(12) to acquire property by purchase or lease for airport
purposes, subject to applicable requirements of federal
law and regulation; (13) to prepare and issue budgets,
reports, procedures, audits and such other materials as
may be necessary and desirable to its purposes; and
(14) to exercise all other powers granted to such an
authority by law.
(b) The authority shall have full control of the
operation and management of the airport, including
land, buildings and easements by means of a lease to

93a
the authority by the city of New Haven and the town
of East Haven.
(c) Notwithstanding the provisions of subsections (a)
and (b) of this section, Runway 2-20 of the airport shall
not exceed the existing paved runway length of five
thousand six hundred linear feet.

C.G.S.A. § 15-120k. Adoption of written procedures
(a) The board of directors of the authority shall adopt
written procedures, in accordance with subsections (b)
and (c) of this section, for: (1) Adopting an annual
budget and plan of operations, which shall include a
requirement of board approval before the budget or
plan may take effect; (2) hiring, dismissing, promoting
and compensating employees of the authority, which
shall include an affirmative action policy and a
requirement of board approval before a position may
be created or a vacancy filled; (3) acquiring real and
personal property and personal services, which shall
include a requirement of board approval for any
nonbudgeted expenditure in excess of five thousand
dollars; (4) contracting for financial, legal, bond
underwriting and other professional services which
shall include a requirement that the authority solicit
proposals at least once every three years for each such
service which it uses; (5) issuing and retiring bonds,
notes and other obligations of the authority; (6)
awarding loans, grants and other financial assistance,
which shall include eligibility criteria, the application

94a
process and the role played by the authority’s staff and
board of directors; and (7) the use of surplus funds.
(b) Before adopting a proposed procedure, the
authority shall give at least thirty days’ notice by
publication in the Connecticut Law Journal of its
intended action. The notice shall include (1) either a
statement of the terms or of the substance of the
proposed procedure or a description sufficiently
detailed so as to apprise persons likely to be affected of
the issues and subjects involved in the proposed
procedure, (2) a statement of the purposes for which
the procedure is proposed and (3) when, where and
how interested persons may present their views on the
proposed procedure. The authority may only adopt a
proposed procedure by a two-thirds vote of the full
membership of its board of directors.
(c) If the authority finds that an imminent peril to
the public health, safety or welfare requires adoption
of a proposed procedure upon fewer than thirty days’
notice and states in writing its reasons for such finding
and the authority’s board of directors, by a threefourths vote of the statutory membership, approves the
finding in writing, the authority may proceed without
prior notice or hearing or upon any abbreviated notice
and hearing that it finds practicable, to adopt an
emergency proposed procedure not later than ten days,
excluding Saturdays, Sundays and holidays, prior to
the proposed effective date of the proposed procedure.
An approved emergency procedure may be effective for
a period of not more than one hundred twenty days and
renewable once for a period of not more than sixty

95a
days. If the necessary steps to adopt a permanent
procedure, including publication of notice of intent to
adopt, are not completed prior to the expiration date of
an emergency procedure, the emergency procedure
shall cease to be effective on that date.

C.G.S.A. § 15-120l. Bonds of the authority.
Trust agreements. Liability and
indemnification of directors
(a) The board of directors of the authority is
authorized from time to time to issue its bonds, notes
and other obligations in such principal amounts as in
the opinion of the board shall be necessary to provide
sufficient funds for carrying out the purposes set forth
in sections 15-120g to 15-120o, inclusive, including
the payment, funding or refunding of the principal of,
or interest or redemption premiums on, any bonds,
notes and other obligations issued by it whether the
bonds, notes or other obligations or interest to be
funded or refunded have or have not become due, the
establishment of reserves to secure such bonds, notes
and other obligations and all other expenditures of the
authority incident to and necessary or convenient to
carry out the purposes set forth in said sections.
(b) Except as otherwise expressly provided in
sections 15-120g to 15-120o, inclusive, or by the board,
every issue of bonds, notes or other obligations, shall
be a general obligation of the authority payable out
of any moneys or revenues of the authority subject

96a
only to any agreements with the holders of particular
bonds, notes or other obligations pledging any
particular moneys or revenues. Any such bonds, notes
or other obligations may be additionally secured by
any grant or contributions from any department,
agency or instrumentality of the United States or
person or a pledge of any moneys, income or revenues
of the authority from any source whatsoever.
(c) Any provision of any law to the contrary
notwithstanding, any bonds, notes or other obligations
issued by the authority pursuant to sections 15-120g
to 15-120o, inclusive, shall be fully negotiable within
the meaning and for all purposes of title 42a. Any
such bonds, notes or other obligations shall be legal
investments for all trust companies, banks,
investment companies, savings banks, building and
loan associations, executors, administrators, guardians,
conservators, trustees and other fiduciaries and
pension, profit-sharing and retirement funds.
(d) Bonds, notes or other obligations of the authority
shall be authorized by resolution of the board of
directors of the authority and may be issued in one or
more series and shall bear such date or dates, mature
at such time or times, in the case of any such note, or
any renewal thereof, not exceeding the term of years as
the board shall determine from the date of the original
issue of such notes, and, in the case of bonds, not
exceeding thirty years from the date thereof, bear
interest at such rate or rates, be in such denomination
or denominations, be in such form, either coupon or
registered, carry such conversion or registration

97a
privileges, have such rank or priority, be executed in
such manner, be payable from such sources in such
medium of payment at such place or places within or
without this state, and be subject to such terms of
redemption, with or without premium, as such
resolution or resolutions may provide.
(e) Bonds, notes or other obligations of the authority
may be sold at public or private sale at such price or
prices as the board shall determine.
(f ) Bonds, notes or other obligations of the authority
may be refunded and renewed from time to time as
may be determined by resolution of the board, provided
any such refunding or renewal shall be in conformity
with any rights of the holders thereof.
(g) Bonds, notes or other obligations of the authority
issued under the provisions of sections 15-120g to 15120o, inclusive, shall not be deemed to constitute a
debt or liability of the state or of any political
subdivision thereof other than the authority or a
pledge of the faith and credit of the state or of any
such political subdivision other than the authority,
and shall not constitute bonds or notes issued or
guaranteed by the state within the meaning of section
3-21, but shall be payable solely from the funds herein
provided therefor. All such bonds, notes or other
obligations shall contain on the face thereof a
statement to the effect that neither the state of
Connecticut nor any political subdivision thereof other
than the authority shall be obligated to pay the same
or the interest thereof except from revenues or other

98a
funds of the authority and that neither the faith and
credit nor the taxing power of the state of Connecticut
or of any political subdivision thereof other than the
authority is pledged to the payment of the principal of
or the interest on such bonds, notes or other
obligations.
(h) Any resolution authorizing the issuance of bonds,
notes or other obligations may contain provisions,
except as expressly limited in sections 15-120g to 15120o, inclusive, and except as otherwise limited by
existing agreements with the holders of bonds, notes or
other obligations, that shall be a part of the contract
with the holders thereof, as to the following: (1) The
pledging of all or any part of the moneys received by
the authority to secure the payment of the principal of
and interest on any bonds, notes or other obligations
or of any issue thereof; (2) the pledging of all or part of
the assets of the authority to secure the payment of
the principal and interest on any bonds, notes or
other obligations or of any issue thereof; (3) the
establishment of reserves or sinking funds, the making
of charges and fees to provide for the same, and the
regulation and disposition thereof; (4) limitations on
the purpose to which the proceeds of sale of bonds,
notes or other obligations may be applied and pledging
such proceeds to secure the payment of the bonds,
notes or other obligations, or of any issues thereof; (5)
limitations on the issuance of additional bonds, notes
or other obligations; the terms upon which additional
bonds, bond anticipation notes or other obligations
may be issued and secured; the refunding or purchase

99a
of outstanding bonds, notes or other obligations of the
authority; (6) the procedure, if any, by which the
terms of any contract with the holders of any bonds,
notes or other obligations of the authority may be
amended or abrogated, the amount of bonds, notes or
other obligations the holders of which must consent
thereto, and the manner in which such consent may
be given; (7) limitations on the amount of moneys to
be expended by the authority for operating,
administrative or other expenses of the authority; (8)
the vesting in a trustee or trustees of such property,
rights, powers and duties in trust as the authority may
determine, which may include any or all of the rights,
powers and duties of any trustee appointed by the
holders of any bonds, notes or other obligations and
limiting or abrogating the right of the holders of any
bonds, notes or other obligations of the authority to
appoint a trustee under this chapter or limiting the
rights, powers and duties of such trustee; (9) provision
for a trust agreement by and between the authority
and a corporate trustee which may be any trust
company or bank having the powers of a trust company
within or without the state, which agreement may
provide for the pledging or assigning of any assets or
income from assets to which or in which the authority
has any rights or interest, and may further provide for
such other rights and remedies exercisable by the
trustee as may be proper for the protection of the
holders of any bonds, notes or other obligations of the
authority and not otherwise in violation of law. Such
agreement may provide for the restriction of the rights
of any individual holder of bonds, notes or other

100a
obligations of the authority. All expenses incurred in
carrying out the provisions of such trust agreement
may be treated as a part of the cost of operation of the
authority. The trust agreement may contain any
further provisions which are reasonable to delineate
further the respective rights, duties, safeguards,
responsibilities and liabilities of the authority;
individual and collective holders of bonds, notes and
other obligations of the authority and the trustees;
(10) covenants to do or refrain from doing such acts
and things as may be necessary or convenient or
desirable in order to better secure any bonds, notes or
other obligations of the authority, or which, in the
discretion of the authority, will tend to make any
bonds, notes or other obligations to be issued more
marketable notwithstanding that such covenants, acts
or things may not be enumerated herein; (11) any other
matters of like or different character, which in any way
affect the security or protection of the bonds, notes or
other obligations.
(i) Any pledge made by the authority of income,
revenues, or other property shall be valid and binding
from the time the pledge is made, and shall constitute
a pledge within the meaning and for all purposes of
title 42a. The income, revenue, or other property so
pledged and thereafter received by the authority shall
immediately be subject to the lien of such pledge
without any physical delivery thereof or further act,
and the lien of any such pledge shall be valid and
binding as against all parties having claims of any
kind in tort, contract or otherwise against the

101a
authority, irrespective of whether such parties have
notice thereof.
(j) The board of directors of the authority is
authorized and empowered to obtain from any
department, agency or instrumentality of the United
States any insurance or guarantee as to, or of or for the
payment or repayment of, interest or principal, or both,
or any part thereof, on any bonds, notes or other
obligations issued by the authority pursuant to the
provisions of sections 15-120g to 15-120o, inclusive,
and, notwithstanding any other provisions of said
sections, to enter into any agreement, contract or any
other instrument whatsoever with respect to any such
insurance or guarantee except to the extent that such
action would in any way impair or interfere with the
authority’s ability to perform and fulfill the terms of
any agreement made with the holders of the bonds,
bond anticipation notes or other obligations of the
authority.
(k) Neither the members of the board of directors of
the authority nor any person executing bonds, notes or
other obligations of the authority issued pursuant to
sections 15-120g to 15-120o, inclusive, shall be liable
personally on such bonds, notes or other obligations or
be subject to any personal liability or accountability by
reason of the issuance thereof, nor shall any director or
employee of the authority be personally liable for
damage or injury, not wanton, reckless, wilful or
malicious, caused in the performance of his duties and
within the scope of his employment or appointment as
such director, officer or employee. The authority shall

102a
protect, save harmless and indemnify its directors,
officers or employees from financial loss and expense,
including legal fees and costs, if any, arising out of any
claim, demand, suit or judgment by reason of alleged
negligence or alleged deprivation of any person’s civil
rights or any other act or omission resulting in damage
or injury, if the director, officer or employee is found to
have been acting in the discharge of his duties or
within the scope of his employment and such act or
omission is found not to have been wanton, reckless,
wilful or malicious.
(l) The board of directors of the authority shall have
power to purchase bonds, notes or other obligations of
the authority out of any funds available therefor. The
authority may hold, cancel or resell such bonds, notes
or other obligations subject to and in accordance with
agreements with holders of its bonds, notes and other
obligations.
(m) All moneys received pursuant to the authority of
sections 15-120g to 15-120o, inclusive, whether as
proceeds from the sale of bonds or as revenues, shall be
deemed to be trust funds to be held and applied solely
as provided in said sections. Any officer with whom, or
any bank or trust company with which, such moneys
shall be deposited shall act as trustee of such moneys
and shall hold and apply the same for the purposes
of sections 15-120g to 15-120o, inclusive, subject to
such regulations as said sections and the resolution
authorizing the bonds of any issue or the trust
agreement securing such bonds may provide.

103a
(n) Any holder of bonds, notes or other obligations
issued under the provisions of sections 15-120g to 15120o, inclusive, and the trustee or trustees under any
trust agreement, except to the extent the rights herein
given may be restricted by any resolution authorizing
the issuance of, or any such trust agreement securing,
such bonds, may, either at law or in equity, by suit,
action, mandamus or other proceedings, protect and
enforce any and all rights under the laws of the state
or granted hereunder or under such resolution or
trust agreement, and may enforce and compel the
performance of all duties required by said sections or
by such resolution or trust agreement to be performed
by the authority or by any officer, employee or agent
thereof, including the fixing, charging and collecting of
the rates, rents, fees and charges herein authorized
and required by the provisions of such resolution or
trust agreement to be fixed, established and collected.
(o) The authority may make representations and
agreements for the benefit of the holders of any bonds,
notes or other obligations of the state which are
necessary or appropriate to ensure the exclusion from
gross income for federal income tax purposes of
interest on bonds, notes or other obligations of the
state from taxation under the Internal Revenue Code
of 19861 or any subsequent corresponding internal
revenue code of the United States, as from time to time
amended, including agreement to pay rebates to the
federal government of investment earnings derived
1

26 U.S.C.A. § 1 et seq.

104a
from the investment of the proceeds of the bonds, notes
or other obligations of the authority. Any such
agreement may include: (1) A covenant to pay rebates
to the federal government of investment earnings
derived from the investment of the proceeds of the
bonds, notes or other obligations of the authority, (2) a
covenant that the authority will not limit or alter its
rebate obligations until its obligations to the holders or
owners of such bonds, notes or other obligations are
finally met and discharged, and (3) provisions to (A)
establish trust and other accounts which may be
appropriate to carry out such representations and
agreements, (B) retain fiscal agents as depositories for
such fund and accounts and (C) provide that such fiscal
agents may act as trustee of such funds and accounts.

C.G.S.A. § 15-120m. Exemption from
state and local taxes
The exercise of the powers granted by sections 15-120g
to 15-120o, inclusive, constitute the performance of an
essential governmental function and the authority
shall not be required to pay any taxes or assessments
upon or in respect of the project, levied by any
municipality or political subdivision or special district
having taxing powers of the state and the project and
the principal and interest of any bonds and notes
issued under the provisions of said sections, their
transfer and the income therefrom, including revenues
derived from the sale thereof, shall at all times be free
from taxation of every kind by the state of Connecticut

105a
or under its authority, except for estate or succession
taxes.

C.G.S.A. § 15-120n. State pledge re bonds or notes
The state of Connecticut does hereby pledge to and
agree with the holders of any bonds or notes issued
under sections 15-120g to 15-120o, inclusive, or with
those parties who may enter into contracts with the
authority, pursuant to said sections, that the state
shall not limit or alter the rights hereby vested in the
authority until such obligations, together with the
interest thereon, are fully met and discharged, and
such contracts are fully performed on the part of the
authority, provided nothing contained herein shall
preclude such limitation or alteration if and when
adequate provision shall be made by law for the
protection of the holders of such bonds, notes and other
obligations of the authority or those entering into
contracts with the authority. The authority is
authorized to include this pledge and undertaking for
the state in such bonds, notes and other obligations or
contracts.

C.G.S.A. § 15-120o. Annual reports. Audits
(a) Within the first ninety days of each fiscal year of
the authority, the board of directors of the authority
shall submit a report to the Governor, the Auditors of
Public Accounts and the joint standing committee of

106a
the General Assembly having cognizance of matters
relating to finance, revenue and bonding. Such report
shall include, but not be limited to, the following: (1)
A list of all bonds issued during the preceding fiscal
year, including, for each such issue, the financial
advisor and underwriters, whether the issue was
competitive, negotiated or privately placed, and the
issue’s face value and net proceeds; (2) a description of
the project, its location, and the amount of funds, if
any, provided by the authority with respect to the
construction of the project; (3) a list of all outside
individuals and firms receiving in excess of five
thousand dollars in the form of loans, grants or
payments for services; (4) a comprehensive annual
financial report prepared in accordance with generally
accepted accounting principles for governmental
enterprises; (5) the cumulative value of all bonds
issued, the value of outstanding bonds, and the amount
of the state’s contingent liability; (6) the affirmative
action policy statement, a description of the composition
of the work force of the authority by race, sex and
occupation and a description of the affirmative action
efforts of the authority; and (7) a description of planned
activities for the current fiscal year.
(b) The board of directors of the authority shall
annually contract with a person, firm or corporation for
a compliance audit of the authority’s activities during
the preceding authority fiscal year. The audit shall
determine whether the authority has complied with its
regulations concerning affirmative action, personnel
practices, the purchase of goods and services and the

107a
use of surplus funds. The board shall submit the audit
report to the Governor, the Auditors of Public Accounts
and the joint standing committee of the General
Assembly having cognizance of matters relating to
finance, revenue and bonding.
(c) The board of directors of the authority shall
annually contract with a firm of certified public
accountants to undertake an independent financial
audit of the authority in accordance with generally
accepted auditing standards. The board shall submit
the audit report to the Governor, the Auditors of
Public Accounts and the joint standing committee of
the General Assembly having cognizance of matters
relating to finance, revenue and bonding. The books
and accounts of the authority shall be subject to
annual audits by the state Auditors of Public Accounts.

C.G.S.A. § 15-120p. Reserved for future use
Effective: July 1, 2011

C.G.S.A. § 15-120z. Reserved for future use
Effective: July 1, 2011

108a
Supremacy Clause of the
United States Constitution,
Article VI, Clause 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

Connecticut Constitution, Article Tenth, § 1
§ 1. Delegation of legislative authority to political
subdivisions. Terms of town, city and borough elective
officers. Special legislation
Sec. 1. The general assembly shall by general law
delegate such legislative authority as from time to time
it deems appropriate to towns, cities and boroughs
relative to the powers, organization, and form of
government of such political subdivisions. The general
assembly shall from time to time by general law
determine the maximum terms of office of the various
town, city and borough elective offices. After July 1,
1969, the general assembly shall enact no special
legislation relative to the powers, organization, terms
of elective offices or form of government of any single
town, city or borough, except as to (a) borrowing power,
(b) validating acts, and (c) formation, consolidation or
dissolution of any town, city or borough, unless in the
delegation of legislative authority by general law the

109a
general assembly shall have failed to prescribe the
powers necessary to effect the purpose of such special
legislation.

49 U.S.C.A. § 40103
§ 40103.

Sovereignty and use of airspace

(a) Sovereignty and public right of transit.—(1) The
United States Government has exclusive sovereignty
of airspace of the United States.
(2) A citizen of the United States has a public right
of transit through the navigable airspace. To further
that right, the Secretary of Transportation shall
consult with the Architectural and Transportation
Barriers Compliance Board established under section
502 of the Rehabilitation Act of 1973 (29 U.S.C. 792)
before prescribing a regulation or issuing an order or
procedure that will have a significant impact on the
accessibility of commercial airports or commercial air
transportation for handicapped individuals.
(b) Use of airspace.—(1) The Administrator of the
Federal Aviation Administration shall develop plans
and policy for the use of the navigable airspace and
assign by regulation or order the use of the airspace
necessary to ensure the safety of aircraft and the
efficient use of airspace. The Administrator may modify
or revoke an assignment when required in the public
interest.

110a
(2) The Administrator shall prescribe air traffic
regulations on the flight of aircraft (including regulations
on safe altitudes) for—
(A)

navigating, protecting, and identifying aircraft;

(B) protecting individuals and property on the
ground;
(C)

using the navigable airspace efficiently; and

(D) preventing collision between aircraft, between
aircraft and land or water vehicles, and between
aircraft and airborne objects.
(3) To establish security provisions that will encourage
and allow maximum use of the navigable airspace by
civil aircraft consistent with national security, the
Administrator, in consultation with the Secretary of
Defense, shall—
(A) establish areas in the airspace the Administrator
decides are necessary in the interest of national defense;
and
(B) by regulation or order, restrict or prohibit flight of
civil aircraft that the Administrator cannot identify,
locate, and control with available facilities in those
areas.
(4) Notwithstanding the military exception in section
553(a)(1) of title 5, subchapter II of chapter 5 of
title 5 applies to a regulation prescribed under this
subsection.

111a
(c) Foreign aircraft.—A foreign aircraft, not part of
the armed forces of a foreign country, may be navigated
in the United States as provided in section 41703 of
this title.
(d) Aircraft of armed forces of foreign countries.—
Aircraft of the armed forces of a foreign country
may be navigated in the United States only when
authorized by the Secretary of State.
(e) No exclusive rights at certain facilities.—A person
does not have an exclusive right to use an air
navigation facility on which Government money has
been expended. However, providing services at an
airport by only one fixed-based operator is not an
exclusive right if—
(1) it is unreasonably costly, burdensome, or impractical
for more than one fixed-based operator to provide the
services; and
(2) allowing more than one fixed-based operator to
provide the services requires a reduction in space
leased under an agreement existing on September 3,
1982, between the operator and the airport.

14 C.F.R. § 139.1
§ 139.1 Applicability.
(a) This part prescribes rules governing the
certification and operation of airports in any State of
the United States, the District of Columbia, or any

112a
territory or possession of the United States serving
any—
(1) Scheduled passenger-carrying operations of an
air carrier operating aircraft configured for more than
9 passenger seats, as determined by the regulations
under which the operation is conducted or the aircraft
type certificate issued by a competent civil aviation
authority; and
(2) Unscheduled passenger-carrying operations of an
air carrier operating aircraft configured for at least 31
passenger seats, as determined by the regulations
under which the operation is conducted or the aircraft
type certificate issued by a competent civil aviation
authority.
(b) This part applies to those portions of a joint-use
or shared-use airport that are within the authority
of a person serving passenger-carrying operations
defined in paragraphs (a)(1) and (a)(2) of this section.
(c)

This part does not apply to—

(1) Airports serving scheduled air carrier operations
only by reason of being designated as an alternate
airport;
(2)

Airports operated by the United States;

(3) Airports located in the State of Alaska that only
serve scheduled operations of small air carrier aircraft
and do not serve scheduled or unscheduled operations
of large air carrier aircraft;

113a
(4) Airports located in the State of Alaska during
periods of time when not serving operations of large air
carrier aircraft; or
(5)

Heliports.

